<html>
<title> - UNIVERSAL VOUCHERS: ENDING HOMELESSNESS AND EXPANDING ECONOMIC OPPORTUNITY IN AMERICA</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]



 
                       UNIVERSAL VOUCHERS: ENDING

                       HOMELESSNESS AND EXPANDING

                    ECONOMIC OPPORTUNITY IN AMERICA

=======================================================================

                            VIRTUAL HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2021

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 117-29
                           
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
 
 
                            ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
45-253 PDF            WASHINGTON : 2021    
 
                           
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             FRANK D. LUCAS, Oklahoma
GREGORY W. MEEKS, New York           PETE SESSIONS, Texas
DAVID SCOTT, Georgia                 BILL POSEY, Florida
AL GREEN, Texas                      BLAINE LUETKEMEYER, Missouri
EMANUEL CLEAVER, Missouri            BILL HUIZENGA, Michigan
ED PERLMUTTER, Colorado              ANN WAGNER, Missouri
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                ROGER WILLIAMS, Texas
JOYCE BEATTY, Ohio                   FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
CINDY AXNE, Iowa                     TED BUDD, North Carolina
SEAN CASTEN, Illinois                DAVID KUSTOFF, Tennessee
AYANNA PRESSLEY, Massachusetts       TREY HOLLINGSWORTH, Indiana
RITCHIE TORRES, New York             ANTHONY GONZALEZ, Ohio
STEPHEN F. LYNCH, Massachusetts      JOHN ROSE, Tennessee
ALMA ADAMS, North Carolina           BRYAN STEIL, Wisconsin
RASHIDA TLAIB, Michigan              LANCE GOODEN, Texas
MADELEINE DEAN, Pennsylvania         WILLIAM TIMMONS, South Carolina
ALEXANDRIA OCASIO-CORTEZ, New York   VAN TAYLOR, Texas
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
NIKEMA WILLIAMS, Georgia
JAKE AUCHINCLOSS, Massachusetts

                   Charla Ouertatani, Staff Director
                   
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    June 9, 2021.................................................     1
Appendix:
    June 9, 2021.................................................    59

                               WITNESSES
                        Wednesday, June 9, 2021

Al-Mansour, Chancela, Executive Director, Housing Rights Center..     9
Cunningham, Mary, Senior Fellow and Vice President, Metropolitan 
  Housing and Communities, Urban Institute.......................     6
Husock, Howard, Adjunct Scholar, Domestic Policy, American 
  Enterprise Institute...........................................    11
Metcalf, Ben, Managing Director, Terner Center for Housing 
  Innovation, University of California, Berkeley.................     7
Oliva, Ann, Senior Fellow, Center on Budget and Policy Priorities     4

                                APPENDIX

Prepared statements:
    Al-Mansour, Chancela.........................................    60
    Cunningham, Mary.............................................    65
    Husock, Howard...............................................    74
    Metcalf, Ben.................................................    78
    Oliva, Ann...................................................    94

              Additional Material Submitted for the Record

Garcia, Hon. Sylvia:
    Written responses to questions for the record from Ben 
      Metcalf....................................................   108


                       UNIVERSAL VOUCHERS: ENDING

                       HOMELESSNESS AND EXPANDING

                    ECONOMIC OPPORTUNITY IN AMERICA

                              ----------                              


                        Wednesday, June 9, 2021

             U.S. House of Representatives,
                   Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 12:19 p.m., via 
Webex, Hon. Maxine Waters [chairwoman of the committee] 
presiding.
    Members present: Representatives Waters, Maloney, Sherman, 
Scott, Green, Cleaver, Perlmutter, Himes, Foster, Vargas, 
Gottheimer, Gonzalez of Texas, Lawson, Axne, Casten, Pressley, 
Torres, Adams, Tlaib, Dean, Garcia of Illinois, Garcia of 
Texas, Williams of Georgia, Auchincloss; McHenry, Lucas, Posey, 
Luetkemeyer, Huizenga, Wagner, Barr, Williams of Texas, Hill, 
Emmer, Zeldin, Davidson, Kustoff, Rose, Steil, and Gooden.
    Mr. Cleaver. [presiding]. The Financial Services Committee 
will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time.
    As a reminder, I ask all Members to keep themselves muted 
when they are not being recognized by the Chair. The staff has 
been instructed not to mute Members, except when a Member is 
not being recognized by the Chair and there is inadvertent 
background noise.
    Members are also reminded that they may only participate in 
one remote proceeding at a time. If you are participating 
today, please keep your camera on. If you choose to attend a 
different remote proceeding, please turn your camera off.
    Before we begin, I will recognize myself to call up the 
resolution offered by Ranking Member McHenry naming a new 
subcommittee ranking member and subcommittee membership. Copies 
of the resolution were made available in advance.
    Without objection, the resolution is adopted.
    Today's hearing is entitled, ``Universal Vouchers: Ending 
Homelessness and Expanding Economic Opportunity in America.''
    And we are very fortunate to have some excellent witnesses 
with us today.
    I now recognize myself for an opening statement, and then 
when Chairwoman Waters is available, she will perhaps add some 
opening comments.
    I would like to thank her, and also Ranking Member McHenry, 
for this important hearing. Today's discussion comes at a time 
when, on any given night in this enormously wealthy nation, 
hundreds of thousands of Americans are without a home, and 
millions more live in fear that their family may end up 
homeless in the near future. Through your leadership, 
Chairwoman Waters, even the most vulnerable among us, those who 
also depend on their Congress to find solutions to the great 
challenges in this nation, continue to have representation in 
these halls.
    And I am proud to join Chairwoman Waters and the 
distinguished gentleman from New York, Mr. Torres, in proposing 
the Ending Homelessness Act of 2021, which would make Housing 
Choice Vouchers an entitlement for those who qualify, and would 
ban landlords from discriminating against voucher holders, 
including banning discrimination based on source-of-income and 
veteran status. Rigorous research continues to demonstrate that 
vouchers sharply reduce homelessness, housing instability, and 
overcrowding, and would better prepare the nation to handle the 
next health or economic crisis.
    Finally, I would also like to congratulate my colleague, 
Congressman French Hill, whom I have enjoyed working with in 
the past, on receiving the confidence to assume the role of 
ranking member of our Housing Subcommittee.
    I look forward to what we can continue to accomplish under 
your leadership, Madam Chairwoman, and also Mr. McHenry's. We 
look forward to bringing a number of areas of agreement to this 
committee in the future. I will now introduce our witnesses.
    Mr. McHenry. Mr. Chairman, traditionally, the ranking 
member is recognized for an opening statement at this point.
    Mr. Cleaver. Yes, and as I told you, there would be 
stumbles, because I am just getting to that, and thank you for 
reminding me.
    The Chair recognizes the ranking member of the committee, 
Mr. McHenry from North Carolina.
    Mr. McHenry. Chairman Cleaver, thank you, and thank you for 
handling adeptly what you have been thrown into here late in 
the game. But thank you for starting the hearing.
    Frankly, today's hearing is about creating a brand-new, 
massive, open-ended Federal entitlement program for 
``universal'' housing vouchers. We should be focused on the 
immediate needs of the economy, like the 9.3 million job 
openings that were unfilled this month and the record 4 million 
workers who quit their jobs in April.
    But, rather, we are going to focus on fulfilling a 
progressive priority that would result in the largest expansion 
of the Department of Housing and Urban Development in its 
entire history. Under this proposal, an additional 14 million-
plus households could qualify for the Housing Choice Voucher 
Program based on their income status alone, which means the 
cost would jump from $25 billion to $185 billion per year. Now, 
it is important to note that $185 billion is nearly 2\1/2\ 
times the entire annual cost of the Department of Homeland 
Security. To be clear, creating a universal housing voucher 
entitlement does nothing to increase the supply of rental 
housing. This means that skyrocketing demand, in already-
expensive markets, would drive rental prices higher and make 
affordable units less available.
    It is ironic that we are here today to discuss another bad 
Democrat housing proposal when we really need to be focused on 
cleaning up the Biden Administration's latest mess. Last 
Congress, we came together to approve $25 billion to repay 
renters' back rent debts. That money was specifically 
designated to make sure no renter would be faced with a 
pandemic-related eviction through no fault of their own.
    Before that money was even out the door, Democrats pushed 
through another $21.6 billion in rental assistance as a part of 
the partisan American Rescue Plan. Now, nearly 6 months after 
the first tranche of funding was enacted, the Treasury 
Department cannot tell us if anyone has actually had their back 
rent debts paid off. The Treasury's exact response when I asked 
last month? ``We will provide this data as soon as 
practicable.'' Let me translate: They have no clue where that 
$46.6 billion in aid is, or how it is being used. This is an 
abject failure by the Biden Administration.
    I am sure I don't need to remind my colleagues across the 
aisle that we have a deadline. The Federal eviction moratorium 
will end this month. If this aid is not delivered to renters, 
they could become homeless, and instead of addressing this 
looming crisis today, we are talking about a long-held 
progressive priority that will do nothing to help renters, and 
this is mismanagement at the highest levels.
    But as we saw last week when Securities and Exchange 
Commission Chair Gensler decided to simply remove the head of 
the Public Company Accounting Oversight Board (PCAOB), 
mismanagement seems to be a trend in Democrat-run Washington. 
When you have full partisan control of the House and the 
Senate, and the White House is in Democrat hands, this is the 
type of mismanagement we are seeing.
    Committee Republicans will be introducing a bill to at 
least end mismanagement of the Emergency Rental Assistance 
Program. This bill will get the money out the door as soon as 
possible and make sure that all $46 billion is used to settle 
back rent debts and protect renters facing eviction. This idea 
is simple, bipartisan, commonsense, and holds government 
accountable, and we are going to be serious about the rental 
assistance needs of the American people. And this bill is a 
strong start to doing that, not with another bad Democrat 
policy that we will be back here trying to fix in a year.
    I yield back.
    Mr. Cleaver. Thank you, Mr. McHenry.
    Chairwoman Waters. Thank you very much, Mr. Cleaver, for 
stepping in and proceeding with our hearing. Unfortunately, we 
got caught in a very difficult situation and could not get 
here, but let us proceed and let us go on. Now that the ranking 
member has spoken--
    Mr. Cleaver. Mr. Hill has 1 minute.
    Chairwoman Waters. Mr. Hill of Arkansas is recognized for 1 
minute. Thank you.
    Mr. Hill. Thank you, Madam Chairwoman. Regarding the idea 
of universal entitlement vouchers, clearly this idea is not 
well-timed or even well-considered, as it wasn't even proposed 
by Secretary Fudge in her enormous 2022 HUD budget. But the 
main issue of the day, to the here and now, is that the 
Treasury has no idea where the total of $46 billion in rental 
assistance is, or how it is being spent. If that is not a 
perfect example of poor governance and oversight, I am not sure 
what is. I can tell you, in my home State of Arkansas, of the 
$200 million allocated by Congress in the December 
appropriations on a bipartisan basis, a mere $18,500 has 
actually been paid out to landlords. And to make it worse, the 
program wasn't even operational until just a few days ago, at 
the beginning of June.
    I look forward to working with my Republican colleagues to 
help get the rental assistance into the hands of the American 
people who need it most.
    I yield back, Madam Chairwoman.
    Chairwoman Waters. I want to welcome today's distinguished 
witnesses to the committee: Ms. Ann Oliva, senior fellow at the 
Center on Budget and Policy Priorities; Ms. Mary Cunningham, 
vice president of metropolitan housing and communities at the 
Urban Institute; Mr. Ben Metcalf, managing director of the 
Terner Center for Housing Innovation at the University of 
California, Berkeley; Ms. Chancela Al-Mansour, executive 
director of the Housing Rights Center; and Mr. Howard Husock, 
an adjunct scholar for domestic policy at the American 
Enterprise Institute.
    Each of you will have 5 minutes to summarize your 
testimony. You should be able to see a timer on your screen 
that will indicate how much time you have left, and a chime 
will go off at the end of your time. I would ask you to be 
mindful of the timer, and quickly wrap up your testimony if you 
hear the chime. Also, without objection, your written 
statements will be made a part of the record.
    Ms. Oliva, you are now recognized for 5 minutes to present 
your oral testimony.

  STATEMENT OF ANN OLIVA, SENIOR FELLOW, CENTER ON BUDGET AND 
                       POLICY PRIORITIES

    Ms. Oliva. Chairwoman Waters, Ranking Member McHenry, my 
name is Ann Oliva, and I am a senior fellow at the Center on 
Budget and Policy Priorities. Thank you for the opportunity to 
testify. I commend the chairwoman for convening this important 
hearing and for her continued leadership on homelessness. The 
Ending Homelessness Act of 2021, introduced by the chairwoman, 
as well as Representatives Cleaver and Torres, would foster 
stronger communities and, inarguably, improve the lives of 
people who are struggling to secure affordable housing.
    The nation is experiencing a homelessness crisis that 
predates the pandemic. In 2020, 30 States saw a rise in 
homelessness, and for the first time since we started gathering 
this data, the number of individuals living on the streets 
exceeded the number of individuals living in shelters. Without 
a significant Federal investment in affordable housing, these 
conditions will only worsen and continue to cause harm to the 
people who feel this crisis most acutely. Expanding the Housing 
Choice Voucher Program to assist all eligible households is the 
most important and effective step Congress can take to address 
this crisis.
    While the chairwoman's bill is the most comprehensive 
option, Congress should also enact the President's proposed 
Fiscal Year 2022 voucher funding increase, and include a large-
scale, multi-year voucher expansion in the upcoming recovery 
legislation. Both of these investments are urgently needed 
since vouchers are available for just 1 in 4 eligible 
households.
    And while the housing investments in the American Jobs Plan 
are significant, less than 1 percent of the funding dedicated 
to housing was allocated to expanding rental assistance. Unless 
a household also receives rental assistance, construction 
subsidies rarely produce housing with rents that are affordable 
for households with incomes around or below the poverty line. 
So in order to make a significant reduction in homelessness, 
Congress must address this imbalance and fund more vouchers in 
the Recovery Plan.
    HUD reports that more than 580,000 people experienced 
homelessness on a single night in January of 2020, and that 
nearly 1\1/2\ million people experienced sheltered homelessness 
at some time in 2018. And while that tells you how many people 
are experiencing homelessness, I want to take a moment to 
describe who is experiencing homelessness. People of color are 
disproportionately impacted. Families are typically headed by 
women and include a high percentage of young children. 
Seventeen percent of all family households are headed by a 
young parent aged 18 to 24, and more than 113,000 unaccompanied 
youth stayed in a shelter or transitional bed in a year. There 
are more than 37,000 homeless veterans, and more than 110,000 
people who are chronically homeless, and people experiencing 
homelessness often work and still cannot afford housing.
    The health and economic impact of the COVID-19 pandemic, 
which has also disproportionately impacted communities of 
color, has only made the situation more dire, and it is clear 
that homeless assistance systems cannot end homelessness alone. 
We must take a comprehensive approach to address housing 
affordability and do so at every opportunity we have, including 
in the upcoming recovery package.
    To prepare for this hearing, I met with people who have 
experienced homelessness. Several told me about waiting in 
shelters for months or more than a year for a voucher or never 
receiving one at all. They said providing more vouchers will 
have the greatest impact on people experiencing homelessness, 
and that they also want Congress to address challenges faced by 
voucher holders in the housing market. Every day, frontline 
staff in homeless systems are required to make devastating 
choices about who will get the help they need. Is a young 
person who is being trafficked in exchange for a place to sleep 
more in need than a person with a serious mental illness living 
on the streets, or a family with young children living in their 
car?
    With an expansion of Housing Choice vouchers, we can have a 
different system. Imagine a system that, instead of being 
forced to prioritize people based on how sick or in danger they 
are, can quickly offer a homeless family, youth, or individual 
a permanent housing option. Imagine a system where outreach to 
people living on the streets is more than an offer of a 
blanket, a bottle of water, or a granola bar, but has a real 
housing option attached. If long-term, guaranteed funding was 
provided for Housing Choice Vouchers, the effects would be 
enormous. Providing a voucher to all eligible households would 
lift 9.3 million people above the poverty line, and these 
benefits would be greatest among people of color.
    Congress can take a step towards this vision by ensuring 
that significant multi-year voucher funding is included in the 
Economic Recovery Plan and by passing the Ending Homelessness 
Act of 2021. Thank you, and I look forward to answering your 
questions.
    [The prepared statement of Ms. Oliva can be found on page 
94 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Cunningham, you are now recognized for 5 minutes to 
present your oral testimony.

STATEMENT OF MARY CUNNINGHAM, SENIOR FELLOW AND VICE PRESIDENT, 
     METROPOLITAN HOUSING AND COMMUNITIES, URBAN INSTITUTE

    Ms. Cunningham. Chairwoman Waters, Ranking Member McHenry, 
and members of the committee, thank you for the opportunity to 
be here today. My name is Mary Cunningham. I am a senior fellow 
and vice president for the Metropolitan Housing Communities 
Center at the Urban Institute. The views expressed here are my 
own, not those of the Urban Institute, its trustees, or its 
funders.
    When the pandemic hit in March 2020, the United States had 
already been grappling with a severe and enduring affordable 
housing and homelessness crisis. Approximately 580,000 people 
were experiencing homelessness on any given night, and nearly 
11 million renters were severely cost-burdened. This crisis 
disproportionately impacts people of color, particularly Black 
and Latinx communities. The housing safety net was unprepared 
to respond to the urgent needs of the pandemic, a public health 
crisis, layered on top of a housing crisis. The lack of stable 
housing for many caused immense human suffering and lives lost, 
but also put the rest of the country at risk by reducing 
people's ability to socially distance in place and increasing 
transmission rates.
    Congress responded with billions of dollars in emergency 
housing assistance, but States and localities are rushing and 
working overtime to distribute these funds before the CDC 
eviction moratorium expires in 21 days. Last month, an 
estimated 7 million renters were still behind on their rent, 
and about 3 million people reported a likelihood of facing 
eviction. We are facing a mass eviction crisis and significant 
increases in homelessness, but we already have a system for 
helping low-income renters, the Federal Housing Choice Voucher 
Program. If housing assistance was available to everyone who 
qualified before the pandemic, families could have more easily 
navigated a sudden job loss, and landlords could have 
consistently covered their expenses. The program would provide 
social insurance against exactly the type of problem the 
country is facing right now. It is time that we reinforce a 
housing safety net by adopting universal housing vouchers to 
provide assistance to everyone who needs it.
    Using our analysis of transfer taxes and income security 
tool, we modeled expanding the Housing Choice Voucher Program 
to everyone who is currently eligible. We found that this 
expansion would cover an additional 19.7 million people and 8.2 
million households. The average household subsidy cost for new 
recipients would be $628 per month, or about $7,500 per year. 
The total cost annually for expansion would be $62 billion per 
year.
    Expanding housing assistance to all those who qualify would 
have sweeping and far-reaching benefits. Homelessness would be 
rare, and if it occurred, it would be brief. Universal vouchers 
could reduce poverty and close racial disparities in housing 
and homelessness. Implementation will need to be closely 
monitored, but the housing market would likely absorb a 
significant expansion of vouchers and would benefit landlords. 
Implementation of a major voucher expansion will matter, and we 
can optimize the program to ensure that all participants 
benefit by: first, targeting new vouchers to those who are most 
vulnerable; and second, including source-of-income protections 
and adopting small area fair market rents; and third, providing 
housing search assistance and navigation assistance.
    Finally, a significant investment in housing vouchers 
should be a component of a comprehensive housing strategy that 
includes incentives for land use and zoning reform at the local 
and State levels, and investments in the development of new 
affordable units. The pandemic is first a health crisis, but 
the remedy to curtail transmission relied heavily on social 
distancing and staying home, reminding us of the importance of 
housing.
    Unfortunately, the country's housing infrastructure and 
safety net have long been neglected and stressed beyond 
measure, leaving far too many people unprotected. We have long 
lived with the shame of homelessness and serial evictions, and 
I hope we see now the devastating impacts of continued 
disinvestment in housing. As vaccination rates rise and the 
country begins to return to normal, we have an opportunity to 
redefine that normal. Let's not make homelessness a part of our 
future.
    Research clearly shows that the adoption of universal 
housing vouchers could bring significant and far-reaching 
benefits, and it is for these reasons that I support universal 
adoption. I appreciate the opportunity to be here today, and I 
look forward to answering your questions.
    [The prepared statement of Ms. Cunningham can be found on 
page 65 of the appendix.]
    Chairwoman Waters. Thank you very much, Ms. Cunningham.
    Mr. Metcalf, you are now recognized for 5 minutes to 
present your oral testimony.

STATEMENT OF BEN METCALF, MANAGING DIRECTOR, TERNER CENTER FOR 
     HOUSING INNOVATION, UNIVERSITY OF CALIFORNIA, BERKELEY

    Mr. Metcalf. Chairwoman Waters, Ranking Member McHenry, and 
members of the committee, I am pleased to join you today. My 
name is Ben Metcalf, and I am the managing director of the 
Terner Center for Housing Innovation. I also speak today from 
the perspective of having run the State of California's Housing 
Department and from having overseen multi-family housing 
programs for HUD in the Obama Administration.
    First, let me affirm what we have already heard today. 
Wages for those below the income have not kept pace with rising 
housing costs. We see growing numbers of households with 
limited ability to afford food, healthcare, children's 
education, or saving for retirement. This is true nationally. 
It is particularly true for California, where I call home, 
which sits at the bleeding edge of the nation's housing 
challenges. Even during the pandemic, when housing costs were 
dropping nationally, California renters were still seeing a 12-
percent increase in average rent prices.
    The housing crisis is also translating into a growing 
homelessness crisis: 2020 marked the 4th consecutive year 
homelessness rose, with the growth entirely in the unsheltered 
population. And in addition to the toll on individuals and 
families, rising housing costs in economically-productive areas 
of this country do negatively impact employment growth and 
productivity. By one estimate, it may be as much as to $1.6 
trillion a year that is lost in wages and productivity from 
this housing crisis.
    The answer to all of these challenges is clearly an 
expansion of Federal housing assistance through supply-side 
subsidies. These investments work. The research shows it. 
Individuals with rental assistance are less likely to 
experience homelessness, housing instability, or unsafe housing 
conditions, and they invest in their own economic mobility as 
well as that of their children. Housing vouchers, in 
particular, serve the most vulnerable in our society, and they 
give their recipients a unique ability to choose the kinds of 
housing and locations that best meet their needs.
    Furthermore, vouchers do already serve as an important 
complement to the resources that local and State Governments 
use to build more housing. As an example, in 2017, California 
enacted No Place Like Home, a $2 billion bond-funded program to 
help construct new permanent supportive housing for formerly-
homeless individuals. But without available adequate Federal 
vouchers, the State was compelled to use those funds to build 
fewer units than would have otherwise been possible because of 
the requirement to capitalize large operating subsidy reserves. 
The upshot was that local funds that could have been used to 
build more housing sit idle in project bank accounts as 
operating reserves.
    Universal voucher expansion, therefore, does offer 
transformative benefits to these various housing and social 
challenges, but I would offer that to maximize that increased 
investment into the voucher program, some reforms are 
recommended.
    Let me identify five in particular. First, we need to 
accelerate the deployment of known fixes to the voucher 
program. This includes updating HUD's process for setting fair 
market rents, making the current physical inspection program 
easier to use for owners, making it harder to directly or 
indirectly discriminate against voucher holders who seek to 
rent housing, and investing heavily in renter counseling and 
landlord outreach.
    Second, it should go without saying that any incremental 
new voucher should be prioritized for those most-vulnerable 
households. We have seen the incredible benefits that accrue to 
formerly-homeless individuals or other extremely low incomes 
when they access these vouchers, and this can be done in 
alignment with State and local housing priorities.
    Third, I would suggest that this expansion should be 
accompanied with a targeted renter's tax credit for those who 
are approaching a phase-out in eligibility. A targeted tax 
credit would ensure that expanded assistance avoids either the 
challenges of a subsidy cliff or asset limits where renters 
lose their assistance if their income goes too high.
    Fourth, we do need to mandate capacity standards for the 
voucher-administering entities, and enable newer vouchers to be 
administered by the same entities that currently oversee State 
and local affordable housing programs whenever possible. The 
current system requires HUD to work through thousands of 
voucher-administering public housing authorities (PHAs) with 
various capacity. In addition, PHAs often sit outside of the 
mainstream of the affordable housing capital delivery 
structure. HUD should have the flexibility to allocate new 
vouchers to States, regional governments, or other non-
traditional entities.
    And fifth, and most importantly, we do need to pair 
vouchers with a robust production-oriented strategy. This 
requires the Federal Government to work constructively with 
local governments to eliminate exclusionary zoning and harmful 
land use policies, as has been proposed under the President's 
jobs plan. It also requires a larger share of those new housing 
vouchers to be projected based into new rental housing 
communities. For traditional affordable housing, additional 
debt for project-based vouchers is used to close funding gaps, 
but an expanded voucher program should also be used to spur 
market rate construction, pairing new vouchers with expanded 
Federal investments into programs used by market rate 
developers.
    In summary, for these reasons I support expansion of the 
voucher program and I encourage the committee to consider some 
of the program reforms that I have mentioned. Thank you.
    [The prepared statement of Mr. Metcalf can be found on page 
78 of the appendix.]
    Chairwoman Waters. Thank you, Mr. Metcalf.
    Ms. Al-Mansour, you are now recognized for 5 minutes to 
present your oral testimony.

 STATEMENT OF CHANCELA AL-MANSOUR, EXECUTIVE DIRECTOR, HOUSING 
                         RIGHTS CENTER

    Ms. Al-Mansour. Hello, and thank you. I want to thank you 
for the opportunity to address the important issue of 
homelessness in America and, in particular, the universal 
voucher program and its capacity to end homelessness and to 
expand economic opportunity in America, and also to express the 
importance of the Ending Homelessness Act that was raised by 
the Honorable Chairwoman Maxine Waters. And if I have time, I 
would like to address one of the earlier issues that was raised 
about the Emergency Rental Assistance Program, which I know 
something about, so I will try to speak rather quickly.
    I am Chancela Al-Mansour. For the past 10 years, I have 
served as executive director of the Housing Rights Center. 
Before joining the Housing Rights Center, I was a legal aid 
attorney for 18 years. I was involved in the Homelessness 
Prevention and Rapid Recovery Housing Project of 2009 that was 
used to address the previous economic fallout. I also serve on 
the boards of the California Reinvestment Coalition and the 
National Fair Housing Alliance, and I am very much involved in 
homelessness prevention issues in California, Los Angeles in 
particular. I am very proud because I served on the Los Angeles 
Homeless Services Authority's Ad Hoc Committee on Black People 
Experiencing Homelessness, and on the Committee on Women 
Experiencing Homelessness. And I myself do have personal lived 
experience with housing instability as well.
    So, it is with this combined experience, and as a 
representative of the Housing Rights Center, that I provide 
this testimony, an opportunity to support a universal program 
and its importance in decreasing household expenses, in 
particular rent, because, as you have heard in other testimony, 
rent often consumes more than 50 percent of monthly household 
income.
    Universal vouchers would provide necessary housing security 
because, due to the COVID-19 pandemic and its harsh economic 
impact on low-income communities, in particular, women-headed 
households, over 12 million families with children are at risk 
of losing their housing due to an eviction. The vast problems 
caused by COVID-19 and the affordability of housing in many 
communities that existed prior to the pandemic, and the ongoing 
impact and intersection of race, wage, and wealth disparities 
require financial and ideological commitment to immediate, 
coordinated, and hopefully, permanent solutions.
    The first step towards eliminating housing insecurity is 
adequately investing in Federal housing assistance. In Los 
Angeles, the need for permanent rental assistance is severe. 
Approximately 60 percent of Los Angeles' over 800,000 renter 
households have incomes that are below 80 percent of area 
median income (AMI). The estimate from the City's housing 
department measured before the pandemic was at more than 21 
percent of renters were severely in arrears due to the loss of 
income.
    The Section 8 Program for the City of Los Angeles is not 
accepting applications, and the waitlist has been closed, and 
is oftentimes closed for several years before new applications 
are accepted. Applications oftentimes take several months to 
process, and not due to the fault sometimes of the process, but 
oftentimes because tenants have a hard time getting their 
histories, their credit status, and things like that from 
previous landlords, from previous employers, and things like 
that in order to prove eligibility.
    And, yes, sometimes some applications go unused. A few do, 
but not because they are not needed. They are very much needed, 
but they especially go unused in Black households where Section 
8 housing vouchers are turned away when they are not protected 
by anti-discrimination laws. Even in California, where Section 
8 discrimination is now prohibited, as it has been since last 
year, some landlords will try to circumvent the law, as we have 
found through investigations. So, it is also very important not 
only to make Section 8 vouchers mandatory, but also to make the 
participation in the Section 8 Program mandatory as well, and 
also to fund the investigations to ensure that discrimination 
against Section 8 vouchers and Section 8 participants does not 
continue. Even before the adverse impact of COVID-19, in 
vulnerable communities, we saw this as well.
    Discrimination also occurs against HOPE IV vouchers, the 
vouchers for persons living with AIDS, and there is 
discrimination against LGBT communities. Also, against VASH 
vouchers, which affects military and veterans, and against 
female-headed households as well. High rents in California and 
so forth have reduced the availability of affordable housing, 
and also, housing prices have gone up with the pandemic, but 
they have not gone down, which has severely reduced the 
availability of housing, further impacting the loss of 
affordable housing, because everybody is competing for this 
housing.
    In closing, a federally-declared eviction moratorium, in 
addition to the Emergency Rental Assistance Program, has helped 
curb the immediate disaster of increased homelessness and 
housing insecurity for many, but these items of relief don't 
extend to all who are eligible, and will end soon. So, low-
income families with children, seniors on fixed incomes, and 
persons with disabilities need a universal voucher program to 
ensure housing stability and to end homelessness for all. Thank 
you. And unfortunately, I did run out of time about the 
Emergency Rental Assistance Program, but I can speak to that. 
Thank you.
    [The prepared statement of Ms. Al-Mansour can be found on 
page 60 of the appendix.]
    Chairwoman Waters. Mr. Husock, you are recognized for 5 
minutes to present your oral testimony.

 STATEMENT OF HOWARD HUSOCK, ADJUNCT SCHOLAR, DOMESTIC POLICY, 
                 AMERICAN ENTERPRISE INSTITUTE

    Mr. Husock. Thank you, Chairwoman Waters, Ranking Member 
McHenry, and members of the committee. I am Howard Husock, an 
adjunct scholar at the American Enterprise Institute. Prior to 
that, I served as research vice president at the Manhattan 
Institute, and director of case studies in public policy at the 
Harvard Kennedy School.
    Too many low-income households find it difficult to afford 
housing. At the same time, an entitlement-based approach to 
housing assistance risks over-promising and under-delivering. 
And at the same time, there are commonsense adjustments to the 
current Housing Voucher Choice Program that can increase its 
reach without major new spending, while providing incentives 
and encouragement for low-income households to improve their 
economic status.
    First, a comparison. We can all remember just a few months 
ago when the coronavirus vaccine had miraculously become 
available, but millions found themselves qualified to receive 
the shot and unable to schedule an appointment. Demand was far 
higher than supply. This has long been a characteristic of our 
low-income housing markets, a function of overly-restrictive 
zoning laws and building codes, among other things.
    But providing, in effect, a check that can only be used for 
one purpose--rental housing--provides no assurance that 
additional supply will come online or that voucher holders will 
be able to find an available unit. Indeed, even at current 
appropriation levels, a 2019 report by the Center for Budget 
and Policy Priorities stated, ``Low success rates among 
families that receive housing vouchers remain a legitimate and 
serious concern.'' A universal housing voucher risks increasing 
the number of locations where this problem will exist. A new 
entitlement program may simply put more low-income households 
in competition with each other for a few available units 
without addressing the fundamental supply issue affecting our 
housing markets today.
    Fundamentally, low-income households face an income 
problem. Providing a coupon that can be used only for rental 
assistance limits how they can use this new income, while 
failing to address the root causes of why that income is so low 
in the first place. We must not forget the steps it takes to 
truly encourage economic upward mobility for poor households, 
improve skills training for the 21st Century, ensuring that 
every child has access to a high-quality public education, and 
reducing discriminatory racial barriers. But we can and should 
make some commonsense adjustments to the current Housing Choice 
Voucher Program. We shouldn't assume that poverty is a life 
sentence in America. We should build on the lessons we have 
learned from successful welfare reform efforts in the 1990s. 
This suggests that we employ vouchers, not on a permanent 
basis, but as a transitional program.
    This leads me to two proposals. First, allow voucher 
holders to sign the same type of rental leases as non-
subsidized households enjoy: a flat rent for a fixed period. As 
it stands, a voucher for a public housing tenant, as they earn 
more money, they pay more rent, 34 cents on each dollar. This 
has all sorts of ill effects, including discouraging finding a 
higher-paying job, forming two-income families, and building 
savings. To better use housing vouchers, we should follow the 
example of the Delaware State Housing Authority, which, as part 
of its Moving to Work Program, combines capped rent and savings 
account escrows with a 5-year ceiling on assistance. A similar 
program has been adopted by the Housing Authority of San 
Bernardino, California, which specifically sets out as a key 
goal the encouragement of tenant economic independence, 
including what it calls, ``a shift from entitlement to 
empowerment.'' They have seen positive results regarding 
employment and income. I will be glad to discuss those in 
detail.
    Of course, as households move out and up, so, too, do 
voucher units become available for other needy families. This 
healthy turnover should be a core part of the voucher program. 
Poverty should not be viewed as inevitable, nor should 
entitlements be seen as universally needed without limit. As 
matters stand, HUD reports an 8-percent turnover rate annually 
among voucher units. That has been as high as 15 percent in 
some other years. Increasing turnover while improving the 
economic situation of voucher households should be key goals of 
the program.
    As President Biden has emphasized, we are in the midst of a 
wonderful economic recovery, and many have lamented the drag 
that our labor market shortages are putting on that. This is 
the time to use our Housing Choice Voucher Program in the 
context of encouraging improved job skills and household 
savings so Americans get through the Voucher Program what 
Lyndon Johnson called, ``a hand up.''
    Finally, a word about our homelessness epidemic. While it 
is tempting to conclude that the streets of Los Angeles are 
filled with homeless encampments because of a failure of the 
housing market, we know that far too many of these street 
sleepers suffer from untreated mental illness and substance 
abuse and may not be ready to maintain an independent 
household. We are failing to provide the services and 
compassionate programs they need and deserve. A universal 
voucher entitlement is not the answer to those in need on the 
streets of Los Angeles, Manhattan, Portland, and Seattle. 
Rather, we should be discussing improved treatment and 
adjustments to Medicaid policy. Conflating housing policy with 
the issues of those sleeping on the street will not put us on 
the right path forward.
    It is an honor to testify in front of the committee today, 
and I look forward to your questions.
    [The prepared statement of Mr. Husock can be found on page 
74 of the appendix.]
    Chairwoman Waters. Thank you very, very much. I would like 
to address my questions to Mr. Husock. You just hit on 
something I have been talking with my staff about. You heard 
the description of homelessness in Los Angeles, particularly as 
it relates to Black people and people of color. I have been 
talking with the County, and I wanted to know from the County, 
in that portion of my district, who is responsible for dealing 
with the encampments under the bridges, on the sidewalks, and 
who is it that is addressing the mental health problems? No one 
seems to be dealing with that, and if you were, what would you 
do with all of those people who have mental health problems? It 
seems that no one is addressing that. Given that, I want 
universal vouchers, absolutely. But what good will they do for 
those who are in those encampments, who have mental health 
problems that are not being addressed by the County, or the 
City, or the Los Angeles Homeless Services Authority (LAHSA)?
    Mr. Husock. I strongly agree with the thrust of the 
chairwoman's remarks, and my heart goes out to those people and 
to the people of Los Angeles who face the Skid Row encampments. 
Medicaid, when it was passed, had a fatal flaw that we still 
live with: Medicaid cannot be received by anybody in a facility 
with 16 units or more. So if the State of California were to 
use State hospitals, not on an open-ended basis like the old 
asylums that we had, but as treatment centers so people can get 
back on their feet, and use a housing voucher if it is 
appropriate. If they can't manage their affairs, the housing 
voucher is not going to get them off the streets, I am afraid. 
So, we need to reform Medicaid.
    If you are an incarcerated person or a formerly-
incarcerated person, you are also limited in terms of what 
Medicaid can provide for you. We need Medicaid to step up and 
be able to provide support for State facilities that are large 
enough to take in these thousands of people, again, not 
forever. I am not saying we should have the old asylums back 
forever, but we need something at least on an interim basis for 
those people. That is one idea.
    Chairwoman Waters. Thank you so very much, and I will now 
turn to Mr. Metcalf and Ms. Oliva. Many of the low-income 
families and individuals who would benefit from a universal 
housing voucher also have significant health needs, including 
mental health or substance addiction challenges, or other kinds 
of disabilities.
    Mr. Metcalf, Ms. Oliva, you have both administered health 
programs that serve these populations and are familiar with 
some of the challenges that exist in terms of States and 
localities aligning their housing and healthcare systems. So, 
how do we align the housing and healthcare systems? You just 
alluded to it, Mr. Husock. Do you have any additional thoughts 
about it? First, Mr. Metcalf?
    Mr. Metcalf. Thank you. The State of California, I think, 
is a great example of a State that has been able to get 
Medicaid waiver authority to be able to deploy those healthcare 
resources in tandem with its housing resources. That includes 
getting somebody into a permanent housing situation, but then 
wrapping around them with services that provide for the 
intensive case management assistance with getting a house in 
the first place, addressing things like onerous security 
deposits. I think it is all doable. I think we have great 
models for it. But we, again and again, run into the limiting 
factors on the one hand of housing assistance to deploy, and, 
on the other hand, having to navigate the contours of these 
waiver provisions on Medicaid. Both of those are solvable 
issues.
    Chairwoman Waters. Thank you very much. Let me get back to 
Ms. Oliva. I was going to ask you something about aligning 
healthcare systems with the vouchers, but since you have so 
much experience, I want to know who in Los Angeles County is 
going down Vermont Avenue and other major Streets where the 
encampments are in the medians, on the sidewalks, and under the 
bridges? Who is going and dealing with those people?
    Ms. Oliva. Thank you for that question, Chairwoman Waters. 
I do spend quite a bit of time in Los Angeles, or I was 
spending a lot of time in Los Angeles before the pandemic. And 
I think this really has to be a partnership between LAHSA, the 
City, and the County. In particular, outreach workers need to 
be armed with not just bottles of water, but they actually have 
to be able to access housing resources in order to help people 
living on the street access both the services that they need 
and the housing resources that will help them actually become 
healthy and end their homelessness.
    Chairwoman Waters. Thank you very much. I have exhausted my 
question time. I now recognize Mr. McHenry for 5 minutes.
    Mr. McHenry. Thank you, Madam Chairwoman. Mr. Husock, I 
will start with you. Look, last year Congress provided $25 
billion in emergency rental assistance. We have had an 
additional $21 billion added to that $25 billion. So, we have 
$46 billion for rental assistance, and the Treasury has 
indicated they have no clue what has happened to these funds, 
and it seems to me that there has been a slow walking of the 
rules. We don't know if any renters actually had their past 
rent debts fully paid, according to congressional intent. What 
are the challenges that the average renter who has arrears is 
facing? Do they even know that this money is available?
    Mr. Husock. It is not just the renters. We have this image 
of the landlord as, ``Daddy Warbucks,'' but there are tens of 
thousands, hundreds of thousands of poor, minority, immigrant, 
and African-American property owners who rely on rental income 
to pay their own bills, to pay the repair people who maintain 
their units. Those funds ripple through low-income communities, 
so when the rent stops, whole parts of low-income economies 
stop. The landlords may not be aware that they are qualified. 
They want that money, but they may be outside of the reach of 
bureaucratic programs.
    I suspect that is definitely true, so we need some 
promotional activities. Just like we promote vaccine use, let's 
promote the idea that if you are a property owner and you are 
owed arrears, you can qualify and tell your tenants. We need to 
do that. And let's not kid ourselves that these landlords have 
lots of choices and they are keen to evict people, that we have 
a looming eviction crisis. Do we really think that they are 
going to kick people out because they have so many people 
waiting to pay the rent? Not necessarily. Everybody has been 
hit so hard.
    Mr. McHenry. Ms. Al-Mansour, how would you respond to this 
question? We obviously have a massive hold-up here. We have $46 
billion allocated. There are obviously some challenges within 
the system to get this money out. How can we deal with this and 
how do we fix the problem?
    Ms. Al-Mansour. First of all, I can only speak to what has 
happened in Los Angeles and, in part, in Los Angeles County. So 
it is significant, but I can't speak nationally. And in terms 
of the first round of the Coronavirus Aid, Relief, and Economic 
Security (CARES) Act funding, the money was spent. The City of 
Los Angeles was awarded about $97 million in emergency rental 
assistance, and every single dollar of that went to landlords 
to pay rental assistance. There are a lot of challenges to the 
program, but the challenges aren't the ones that you think. The 
challenges have to do with the fact that these programs went to 
low-income tenants. A lot of low-income tenants, for example, 
don't have bank accounts and things like that. They didn't have 
landlords who wanted to participate in the program. We have a 
lot of landlords, and I agree that there are a lot of landlords 
who are struggling right now to pay their mortgages, but some 
of them are using this assistance.
    Mr. McHenry. Ms. Al-Mansour, you said the first tranche of 
money from the CARES Act was deployed. What about the second 
batch, this $21.6 billion? What is the hold-up here?
    Ms. Al-Mansour. In Los Angeles also, renters are being 
paid. Applications are being processed. Again, I can't speak to 
what is happening everywhere, but some of it, if there is 
hesitation, a lot of it does have to do with, there is, again, 
some hesitation of landlords wanting to participate in the 
program, we think for a few different reasons, for example, 
because some landlords are holding out for 100 percent of the 
back rent to be paid, not just a part of it. So there is that. 
There is also the fact that there is discrimination that goes 
on. There are some landlords who value their rental unit more 
than their tenant, and some of them would prefer to have a 
tenant leave, especially if it is a rent-restricted unit, in 
order to be able to raise the rent--
    Mr. McHenry. Ms. Al-Mansour? You obviously keep detailed 
track of where this money is deployed. What we are seeing 
across the country is an unequal deployment. We have with the 
Federal response a lack of information of where the money is 
going. What I am hearing from you is that you are paying close 
attention to this money, but as a Federal office holder and as 
a policymaker, I don't have the same data, and we are not 
getting the same data in Congress as you are providing us 
today. So, thank you for your testimony.
    Finally, Madam Chairwoman, we have 9 million unfilled jobs 
this last month. We need to help get people back to work, and I 
think that will have a far more beneficial impact than some new 
government program. Thank you all for your testimony. I yield 
back.
    Chairwoman Waters. Thank you very much. The gentleman from 
California, Mr. Sherman, who is also the Chair of our 
Subcommittee on Investor Protection, Entrepreneurship, and 
Capital Markets, is recognized for 5 minutes.
    Mr. Sherman. Thank you. Ms. Cunningham, according to a 
report issued by HUD in 2018, low levels of landlord 
participation and low acceptance of vouchers has resulted in 
diminished lease-up rate and a decreased likelihood that 
households are able to use their vouchers within the allotted 
time. Last month, Senators Coons and Cramer introduced 
bipartisan legislation, the Choice in Affordable Housing Act, 
which seeks to increase landlord acceptance of vouchers by 
putting in place stronger incentives.
    As we seek to expand the availability of Housing Choice 
vouchers, it would seem that we need to make sure that we have 
the tools in place to ensure that voucher holders are actually 
able to use them to acquire rental housing. In general, do you 
agree that there is more that we can be doing to expand 
private-sector participation, and make sure that these vouchers 
actually turn into an affordable housing unit?
    Ms. Cunningham. Thank you for the question, Congressman. I 
do agree that there is more that we can be doing. I think that 
the Housing Choice Voucher Program is a public-private 
partnership, and that private partnership really relies on 
landlords participating in the program.
    At the Urban Institute, I led a study that looked at 
landlord discrimination against voucher holders, and we found 
that in many places--Los Angeles, for example--landlords 
rejected voucher holders at a rate of 76 percent; in Fort 
Worth, 78 percent. In places like Washington, D.C., where there 
are sources of income protections that actually prohibit 
discrimination against voucher holders, those rates of 
rejection are much lower, hovering around 15 percent, so still 
some rejection, but much, much lower. So, I think the first 
thing that we need to do to encourage landlord participation is 
to adopt source-of-income protections and prohibit 
discrimination against voucher holders. I think that is sort of 
the stick.
    I think we should also offer carrots, so incentives to 
landlords to participate in the program, making sure that the 
program is easy to use, making inspections less difficult, 
setting rents at competitive rates using small-area Fair Market 
Rents (FMRs), and, basically, just improving the overall 
management. There are some housing authorities that are very 
high-performing, that have very high rates of success as well 
as high rates of landlord participation. Landlords in the study 
actually asked, which housing authority are you presenting your 
voucher from, and they care because the management of the 
program really matters. They would take vouchers from some 
housing authorities and not others. So I agree, this is a 
public-private partnership, and it is important.
    Mr. Sherman. Let me get in one more question. Ms. Oliva, in 
your written testimony, you note that expanding the 
availability of Housing Choice Vouchers should, in your words, 
create an environment where partners, like continuum of care 
entities and public housing authorities, work together to 
prevent and end homelessness. I would like to draw your 
attention to the Homelessness Assistance Act, which I want to 
thank Chairwoman Waters for putting in the list of bills we are 
considering today. I introduced this bill, I believe, last 
year. It passed overwhelmingly on the Floor of the House, but 
we need to pass it again.
    The bill would empower local public housing authorities to 
share information, where appropriate, with other local 
government agencies and with nonprofits engaged in a continuum 
of care program. Currently, often, that information cannot be 
shared, and, as a result, the homeless person or previously-
homeless person is not getting the continuum of care that they 
need. This bill is a tailored exemption to the Federal Privacy 
Act, to allow public housing authorities to share some of their 
data with continuum of care organizations. Would you agree that 
increasing data sharing among those trying to provide help to 
the previously-homeless and the homeless insecure is an 
important step to take?
    Ms. Oliva. Thank you so much for that question, 
Congressman. I would say a couple of things are important to 
point to as I respond to that question. The first is that data 
sharing is an important process between different kinds of 
organizations who are all serving the same person, in many 
cases.
    Mr. Sherman. Thank you.
    Ms. Oliva. Thank you.
    Mrs. Wagner. I believe I may be up next for questioning. Is 
the chairwoman available? Would the Vice Chair like to 
recognize me?
    Mr. Cleaver. [presiding]. Mrs. Wagner, you are recognized 
for 5 minutes.
    Mrs. Wagner. I thank the gentleman, my friend from 
Missouri. Mr. Husock, one of the largest drivers of 
unaffordability in the housing market is the shortage of 
housing in our country. Major metropolitan areas have become 
extremely expensive because many cities and States actively 
disincentivize development of new units of housing. Would 
creating a new housing voucher entitlement address this issue?
    Mr. Husock. No, that is exactly the point, that it would 
not, and we need to persuade localities. First of all, we are 
in the midst of a huge sea change in housing markets because of 
the remote work possibility. So, as the gentleman from the 
Terner Center pointed out, there has been this tremendous 
pressure on the California housing markets that led to income 
inequality because of the inability of people to partake in the 
growth areas. Now, that is changing. Rents in San Francisco are 
going down, and so the whole thing is kind of up in the air 
right now, but, still, we need to persuade localities. That is 
where it is. States can--
    Mrs. Wagner. Let me just be clear, flooding our private 
housing markets with Federal dollars for rental assistance 
would only further drive up the cost of housing and do nothing 
to increase, what I would say, the supply of housing. Am I 
correct?
    Mr. Husock. Yes, and look at California's environmental 
policy laws, which do have incredible delays. So, yes, because 
of those kinds of barriers, you are exactly right.
    Mrs. Wagner. Okay. So, what policy changes do you believe 
would create more affordable and available housing in America? 
We have talked about some of the environmental factors 
certainly in California, but what else? How do we solve this? 
We have a huge supply issue right now. Throwing more Federal 
entitlement money at it is only going to drive up the cost and 
not solve the shortage problem. How do we do handle this, do 
you think?
    Mr. Husock. In the short term, we have to get rid of 
tariffs on Canadian lumber because there is a lumber storage--
    Mrs. Wagner. Hear, hear.
    Mr. Husock. --which is a small thing, but it's a big thing 
right now for home builders. But number two, this is up to all 
of our communities. All of us need to talk to our local 
planning boards and say, do you want your kids to be able to 
live in the towns where they grew up? Do you want your 
teachers, and your police, and your firefighters to be able to 
live in the towns where they work? You have to allow for 
naturally-occurring affordable housing. How does that happen? 
Smaller homes on smaller lots. The Levittown homes of the 
1950s, 750 square feet. We don't build any homes like that 
anymore, but people lap them up. We need our planning boards to 
take action.
    Mrs. Wagner. Mr. Husock, participation in the Housing 
Choice Vouchers Program is mostly voluntary for private 
landlords. We have talked about that. But if this program were 
to become an entitlement, it would likely become mandatory for 
landlord participation. For what business reasons would a 
landlord choose not to participate in this program?
    Mr. Husock. If you are only going to get so much rent, you 
want to make sure you get that rent. And remember, the tenants 
are on the hook for 30 percent of the rent, and so, anybody who 
is in business is going to look at the credit scores of those 
individuals. They may look at the family structure and say, I 
am worried about renting to children because they may damage 
the property. I have been a landlord and I have rented to 
children. I don't sympathize with that point of view, but it is 
a point of view. So I think credit scores and the ability to 
pay would be the biggest deterrence to renting that would still 
be legal.
    Mrs. Wagner. If they do not want to participate, would they 
likely raise the cost of their units above HUD's fair market 
rents?
    Mr. Husock. I am not sure they would have that flexibility. 
Those who participate in the Housing Choice Voucher Program are 
lower middle-class neighborhoods typically. They are not going 
to Beverly Hills, they are going to San Bernardino, in the 
California context. It is possible they would raise rent if 
they could, but they may not be able to.
    Typically, the--
    Mrs. Wagner. I was wondering how this would impact the cost 
of housing for everyone else potentially?
    Mr. Husock. Any time you increase demand and you don't 
increase supply, you don't have to be Ben Bernanke to know what 
happens.
    Mrs. Wagner. Yes. Well, we are seeing that all over the 
country. The housing shortage is a real problem that we have 
across-the-board.
    I thank you for your testimony. I appreciate the chairwoman 
putting this hearing together, and I will yield back the 
remainder of my time. It looks like Chairwoman Waters is up and 
running.
    Thank you.
    Chairwoman Waters. Yes, we are back. We had some technical 
difficulties, but I think they have been cleared up now.
    The gentleman from Georgia, Mr. Scott, who is also the 
Chair of the House Agriculture Committee, is now recognized for 
5 minutes.
    Mr. Scott. Thank you, Madam Chairwoman, for this very, very 
important and critical hearing.
    Make no mistake about it, ladies and gentlemen, let us cut 
right to the chase. We need these vouchers. Expert research 
shows that housing vouchers prevent homelessness.
    Our homeless population is spreading all across our nation, 
and the last thing we need is discrimination against the very 
people who need them. Discrimination against the people who use 
these vouchers has curtailed what little progress we have made 
with homelessness, but this is the tool we need to use.
    So, Mr. Metcalf, let me go to you, because we need to find 
out from this hearing what we, in the Financial Services 
Committee, can do. Our job is to legislate effective means of 
helping cure this nation of this homeless crisis. So, Mr. 
Metcalf, can you explain how a Federal or national universal 
solution banning housing voucher discrimination would benefit 
our struggling families?
    Mr. Metcalf. Yes, thank you, Congressman.
    Ms. Cunningham spoke to this briefly, but there is good 
evidence to show that once you have in place a source-of-income 
discrimination law that prevents people from choosing not to 
rent to voucher holders, the ability of those voucher holders 
to access housing gets much more effective, and they are able 
to access homes in locations that otherwise might have been 
closed off to them.
    I think to your earlier point, obviously, this universal 
voucher program would, in one fell swoop, make vast inroads 
against our homeless situation, and I also think and have 
suggested in my testimony that a universal housing voucher 
would be very effective in terms of stimulating new housing 
construction. It will allow builders to rely on income streams 
that before they hadn't to be able to leverage additional debt 
to pay for investments into new housing supply.
    Mr. Scott. Let me go to you, Ms. Cunningham. The Urban 
Institute has recommended greater investment in recruiting 
landlords in middle-income and wealthier neighborhoods to 
participate in the voucher program. Tell us what the response 
has been from these middle-income and wealthier neighborhoods 
with landlords who are considering participating in these 
voucher programs?
    Ms. Cunningham. Thank you for the question, Congressman.
    Our studies have found that landlords who have apartments 
or units in lower poverty neighborhoods or neighborhoods that 
we might label opportunity neighborhoods actually have lower 
participation. They are more likely to say no to voucher 
holders.
    The challenge with that is that we know from really strong 
evidence that if we can help voucher holders access opportunity 
neighborhoods, they actually can improve their life chances and 
outcomes, and increase their economic mobility. Kids have 
higher rates of educational attainment and higher lifetime 
earnings if they can move to those better neighborhoods, and 
vouchers can help get them there. We just need more 
participation from landlords and better assistance in helping 
families move to those neighborhoods.
    Mr. Scott. What do you suggest? We have a variety of pieces 
of legislation dealing with this coming to bear, the 
discrimination, making sure we have the level of money now to 
address this issue. I want you to know that 20 States, and 
Cities like Atlanta, have passed laws requiring landlords to 
treat voucher holders the same as they would any applicant.
    Now, are we making progress on that? And should this be 
incorporated in a national law?
    Ms. Cunningham. Yes, as you noted, there are State and 
local protections. Only one out of three voucher holders is 
protected, and we need national protections to make sure that 
every voucher holder doesn't have to face discrimination from 
landlords.
    Mr. Scott. Thank you. I appreciate it.
    Chairwoman Waters. Thank you very much. The gentleman from 
Florida, Mr. Posey, is now recognized for 5 minutes.
    Mr. Posey. Thank you, Madam Chairwoman, for holding this 
hearing today.
    Mr. Husock, do you agree that we ought to address 
alternatives or incentives for bringing down the cost of 
construction of housing, including multifamily housing, so that 
we can meet the needs of affordable housing?
    Mr. Husock. Yes, of course, we have to do that. And one of 
the ways that we can do that is through local zoning, local 
building codes. Builders talk about equivalencies. In San 
Diego, there was an effort to build single room occupancy 
hotels, so-called single room occupancy buildings. They had to 
get equivalency waivers from the fire chief to have microwave 
ovens in the rooms so that the people could use them.
    These are commonsense changes that can be very impactful. 
So, localities need to look at their building codes, look at 
their zoning codes, and ask the question, ``How can I 
facilitate rather than block new multifamily construction?''
    Mr. Posey. Thank you. I appreciate that.
    Can you recommend any housing or apartment construction 
technologies that Congress might be able to encourage to bring 
down the housing costs and to benefit the homeless?
    Mr. Husock. I have to say I am not an expert on 
construction, so I will have to dodge that question.
    Mr. Posey. Okay. Do you think it would be advisable for the 
State and local programs to have any matching requirements so 
that they might have some skin in the game to help encourage 
incentives to expand supply?
    Mr. Husock. In terms of their receipt of housing vouchers?
    Mr. Posey. Any of the above. Do you see a role where--
oftentimes, we talk about how the Not in My Backyards (NIMBYs) 
don't want to have construction near them that doesn't meet 
whatever standard they think is in their best interest.
    Mr. Husock. Yes. And a Democratic Senator from California, 
Scott Wiener, is part of a Yes in My Backyard (YIMBY) movement, 
and while I don't agree with him on everything, that is the 
right attitude, which is, can we have model zoning the States 
can present to their localities and say, ``You do it this way, 
and there is going to be a less tight housing market.''
    So, I think States, and HUD, for that matter, have a role 
in modeling the right kind of zoning that will permit new 
construction.
    Mr. Posey. The chairwoman has had a number of hearings on 
this issue. We find there are cases where you have to have two 
parking places for--
    Mr. Husock. That is right. Absolutely.
    Mr. Posey. --a homeless occupant. That really doesn't make 
good sense. How do we encourage local and State Governments to 
get more engaged?
    Mr. Husock. Yes, the parking requirement is a particularly 
onerous one in California specifically, and communities are 
beginning to look at that. I just would turn quickly to 
Chairwoman Waters, who had such a great question about the 
street homelessness. California had 50,000 units of hospital 
space for the mentally troubled in 1955. Today, it has 5,000.
    So, it is no wonder we have all of these people on the 
street. I am not saying we need 50,000, but we need more than 
we have.
    Mr. Posey. Well, listen, I appreciate your answers, and I 
yield back the balance of my time.
    Chairwoman Waters. The gentleman from Texas, Mr. Green, who 
is also the Chair of our Subcommittee on Oversight and 
Investigations, is now recognized for 5 minutes.
    Mr. Green. Thank you, Madam Chairwoman.
    I support the Ending Homelessness Act of 2021. The 
discussion draft is something that I have had an opportunity to 
peruse. A discussion draft is just that, that it can be 
improved upon. There may be some amendments to it, but the 
concept is something that I clearly support.
    And I would like to harken back, if I may, to Social 
Security. In January of 1935, it passed the House, but didn't 
have unanimous consent. And it passed the Senate, but didn't 
have unanimous consent.
    Some of the debate included in this was that it would be 
discriminatory; there would be some people who would receive it 
and some people who wouldn't. Another debate was that it would 
cause a great injustice in a number of States that are also 
bankrupt or nearly so.
    And here is one that I am ashamed of: There were those who 
said it was a foolish gesture to pass Social Security. I would 
dare say no one would want to end Social Security--well, let me 
say this, a good many don't want to. There may be some who 
would. But Social Security has been a great benefit to us.
    Medicare passed in 1965. It didn't pass unanimously. In the 
House--313 yeas, 115 nays, and 5 not voting. In the Senate--68 
yeas, 21 nays, and 11 not voting.
    I don't believe that we will get unanimity, but I do 
believe that on the things that are important, the big things 
that can make a difference in the lives of people, we should 
move forward with them.
    I was a judge of a small claims justice court for a quarter 
of a century. I conducted hearings for people who had mental 
health problems, and we would help them to get stabilized. But 
if they were living on the street, they would go back to the 
street. They didn't have a place to call home. They didn't have 
an anchor. They didn't have something that they would be 
looking forward to, and we could find them if we needed to. 
They would go to another location.
    People who are on the street and suffer with diabetes, go 
to the emergency room. They get stability. They go back to the 
streets, and we have to then find them again. The cost of 
homelessness is far greater than the cost of providing shelter 
for people in a place that I would call home.
    I have been to Skid Row. I was there with the chairwoman. I 
have seen what it is like to be on Skid Row. And Skid Row is 
coming to my community in Houston, Texas. And it is probably 
coming to a good many other communities around this country.
    So, Skid Row is not just a place for us to assume is going 
to remain in somebody else's area. It is going to be around the 
country. I see no plan better than this plan to end 
homelessness, and I am going to support it.
    And I do have a question. What alternative is going to be 
superior to putting a person in a home, where that person can 
then have all of their other needs addressed? We have had 
intellectuals appear before this committee and indicate to us 
that the genesis of solving a good many of these problems is a 
place to call home.
    Let me just start with Mr. Husock, and I am not going to be 
able to give you all of my time, but you have spoken quite well 
this morning, and I greatly appreciate it. So, Mr. Husock, what 
do we do that is better than having a place in a house?
    Now, look, I understand that there are all kinds of 
problems with dealing with it. You have building codes. I 
understand these things. But do you see people in homes having 
the benefit of being able to move into other things that can 
benefit them with their mental health, with their stability in 
life so that they can get a job, apply for a job, and you have 
a place that you can identify with as your home?
    Mr. Husock. Thank you so much for that excellent question, 
Congressman.
    We have a program called Housing First in HUD, which thinks 
that is the most important thing first, is a home. I think we 
need treatment first. We need treatment in treatment 
facilities. And then, when people graduate and they are ready 
to go into--
    Mr. Green. Let me just respond to you. Let us assume that 
we have the treatment. We will still need to have the house and 
the home at some point is what you are saying.
    So, let me go to another person. Thank you very much. Let 
me go to Ms. Cunningham. Ms. Cunningham, a place to call home, 
how does that address these other problems?
    Ms. Cunningham. It helps provide people with stability so 
that they can work on those other problems. You can't work on 
your drug or substance use issue or mental health issues while 
you are sleeping in a tent. If you have a house, then you have 
a platform that is stable that you can work from, and data 
shows that you can improve and improve your outcomes.
    Mr. Green. I will have to yield back. Thank you, Madam 
Chairwoman, for the time.
    Chairwoman Waters. Thank you very much. The gentleman from 
Missouri, Mr. Luetkemeyer, is now recognized for 5 minutes.
    Mr. Luetkemeyer. Thank you, Madam Chairwoman.
    And I just wanted to comment, I see the gentleman from 
Missouri, the distinguished chairman of our Housing and 
Insurance Subcommittee, and he and I, a few years ago, when I 
was chairman of that subcommittee, put together a bill that 
made over 60 changes to HUD, which I think today we are reaping 
all the benefits of, and that was a bipartisan effort that we 
were able to get a lot of work done, and I want to commend him 
for and, again, help folks remember that this can be done.
    But this morning, we are talking about a little bit 
different subject here in a way. One of the things we have 
already talked about here is the overall lack of housing. One 
of the comments that I think we have had in previous hearings 
is that 25 percent of the cost of building a home or apartments 
in these cities sometimes is due to local regulations.
    Mr. Husock, is that a reasonable figure? Is that about 
right, that you have heard of before?
    Mr. Husock. It varies tremendously. It is higher than that 
in New York. I have read 40 percent in New York. It is higher 
than that in California. It is lower than that in Houston, 
Texas. And that is why you have so much housing construction in 
the State of Texas. But to the fundamental thrust of your 
question, absolutely, that does add on.
    Mr. Luetkemeyer. Just the cost of housing--I think one of 
the comments made earlier was that because of the increasing 
cost of housing and the building of apartment houses, multi-
unit buildings as well, it raises the cost beyond the ability 
of people to pay for it. And that is why a lot of them are 
going to need some additional help in rental assistance 
vouchers or whatever here.
    So, I feel that we have come to some discussion points here 
that are really, in my own mind, I am kind of wondering a 
little bit about. I think Ms. Al-Mansour made a comment to the 
effect that the landlords don't participate in a voucher 
program. And I think Ms. Cunningham made the comment a few 
minutes ago as well that you would find a lot of landlords not 
participating in low- and moderate-income areas.
    So, Ms. Cunningham, I guess my question to you is, why are 
some folks who actually are setting up shop, they have their 
apartment buildings in low- and moderate-income areas, not 
participating in a voucher program? Do we need to change the 
program around to provide some incentives?
    Ms. Cunningham. I think we do need to provide some 
incentives. I think there are a lot of reasons why landlords 
don't participate. I will say that many of the landlords who 
have participated in the Housing Choice Voucher Program during 
the pandemic have found positive experiences, and I think that 
landlords actually need to have incentives, like you said.
    And so, thinking about either offering some financial 
assistance, making it easier by waiving or expediting 
inspections, would all be helpful. But I also think some 
landlords discriminate against voucher holders, and I think we 
heard a little bit of that earlier. Many voucher holders have 
children. There is a lot of stigma around voucher holders that 
isn't true.
    And so, I think landlords also discriminate, and we need to 
have protections against that discrimination.
    Ms. Al-Mansour. Thank you. This is Chancela Al-Mansour. I 
would like to address that issue also, and I want to thank 
Representative Wagner for raising that.
    The main reason we get that landlords don't participate in 
the Section 8 program is because they say they don't want the 
involvement of the government. They don't want the government 
in their property, doing inspections, looking over their 
reports, watching, making sure they don't discriminate against 
their tenants, and making sure they do repairs on time. They 
don't want that oversight.
    And what do we say to those landlords? You are already in 
the business of providing housing. Anytime you are in a 
business, there is going to be some government oversight, 
whether it is a restaurant or anything else.
    And that is one of the main reasons we get in terms of why 
landlords don't want to participate. They don't want the 
government intrusion into their business of providing rental 
housing.
    And the other thing, yes, is discrimination. At the Housing 
Rights Center, we are investigating discrimination against 
Black tenants who have Section 8 vouchers, and they are being 
discriminated against. In the San Fernando Valley, we had an 
apartment building where there were six tenants who lived 
there. They had all been there for years.
    California changed the State law, the City of Los Angeles 
did, mandating that the owners accept Section 8. The owner 
accepted it from the one White tenant, but not from the Black 
tenants until we got involved. And they were already in place. 
We believe the owner wanted them not to be able to afford the 
apartment ultimately, so that they would have to move out.
    Discrimination against Black tenants is definitely one of 
the main reasons why landlords don't want to participate in the 
Section 8 Program.
    Mr. Luetkemeyer. As you know, my time is about up. I thank 
you for your responses. And I thank the witnesses for being 
here today.
    And with that, Madam Chairwoman, I will yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
Missouri, Mr. Cleaver, who is also the Chair of our 
Subcommittee on Housing, Community Development, and Insurance, 
is now recognized for 5 minutes.
    Mr. Cleaver. Thank you, Madam Chairwoman, and you were not 
here earlier when I expressed appreciation for this committee 
hearing, and I appreciate it very much because I think this is 
critically important.
    One of my long-time concerns goes back years and years and 
years, actually goes back to my great-grandmother who refused 
to tell people from the Census how many children were in the 
house. She had 18 children with my grandpa. And so, I am always 
concerned about the undercount, because it damages a lot of 
things for the least of the people in this country.
    Last Congress, then-Subcommittee Chair William Lacy Clay 
and I requested that the GAO investigate best practices for 
counting the United States homeless population. And communities 
throughout the country participate in the Point-in-Time count 
in conjunction with the U.S. Department of Housing and Urban 
Development (HUD). And although it is a helpful tool in 
determining the population of those experiencing homelessness, 
it is not perfect. It does have its limitations. The GAO is 
currently undergoing work on those recommendations.
    So I would like to hear from the panelists, while we are 
talking about the importance of universal vouchers, are you, 
first of all, concerned about the count or our ability or 
inability to count homes, how accurate is it, and whether or 
not you are concerned that the methods we are using may create 
some additional undercounting, so we will never fully find the 
extent of homelessness. And then, we don't know how to solve 
the problem, and it is going to be difficult to get resources.
    I would like to have all of the panelists respond to that, 
please.
    Ms. Oliva. I would be happy to start. Thank you so much for 
that question, Congressman.
    I used to run the office at HUD that runs the Point-in-Time 
count, so I want to just note a couple of things. It is 
important to know that the Point-in-Time count is just that. It 
is a snapshot every year of what is happening on a single night 
in January. And therefore, it does have some limitations, which 
is why most of us in the field actually use multiple types of 
datasets in order to really understand what is happening with 
regard to homelessness.
    We look at the number of households that are at risk or who 
are paying more than 50 percent of their income in rent. We 
look at the number of households that are experiencing 
homelessness at a point in time. But we also look at data for 
who is using homeless services over the course of a year, to 
really try and understand what the flow is through the system.
    And then, we look at the Department of Education data, 
which also has its own limitations, because it really only 
captures school-aged children. So, I think it is important for 
us to make sure that when we are talking about universal 
vouchers, that we are aware of all of these different types of 
datasets and are using them in order to create a comprehensive 
approach.
    Mr. Cleaver. And then, Ms. Chancela--if you don't mind, I 
will call you Ms. Chancela, so that I won't continue to 
assassinate the pronunciation of your name--I would like to 
hear from you, please.
    Ms. Al-Mansour. Yes, this is Chancela Al-Mansour. Thank you 
very much for your attempt. I appreciate it.
    So, yes, I agree. Ms. Oliva pointed to one of the main 
problems. The Point-in-Time count, even in Los Angeles, is 
conducted in January. And it is for good reasons that it is 
conducted in January. But even in Los Angeles on a January 
night, it can get down to the 30s and the 40s, and there are 
mountains where it can go to freezing. So, that is a time where 
more people may have family members or may have friends or 
maybe church members who feel sorry for them and may take them 
in.
    The point is that the Point-in-Time count probably is the 
lowest time and probably has the fewest number of people 
experiencing homelessness on the streets. We who do the Point-
in-Time count realize that happens, and we know that the count 
is undercounted, that there are many more people who are 
experiencing homelessness and who are unhoused who are on the 
streets.
    And yes, even going to the schools doesn't give us a really 
good number, and we know that to undercount in terms of the 
number of students who are experiencing homelessness who are 
enrolled in the school system, younger kids who are 
experiencing homelessness tend to be more enrolled in the 
school system, but the dropout rates happen very quickly by the 
time they reach the sixth, seventh, and eighth grades, for a 
number of reasons.
    Just practical reasons, they have clothes that smell, and 
they are embarrassed and so forth--they don't have clean 
clothes to wear to school and things like that. So, there are 
many reasons why we know that the Point-in-Time count is 
undercounted, but it is probably the best that we can do at 
this point.
    Mr. Cleaver. Thank you.
    Chairwoman Waters. Thank you very much. Mr. Barr, you are 
now recognized for 5 minutes.
    Mr. Barr. Thank you, Madam Chairwoman.
    Mr. Husock, I infer from your testimony that you would 
support the ability of families to use Housing Choice Vouchers 
in non-Housing First facilities. I continue to implore my 
colleagues to allow vouchers--if we are going to be talking 
about Section 8 reform, I implore my colleagues to allow our 
low-income, poor, and homeless families around the country to 
use vouchers in non-Housing First facilities.
    Last year, the U.S. Interagency Council on Homelessness 
released a report that I commend to all of my colleagues, which 
found that this one-size-fits-all approach to homelessness is 
not effective, and it has actually led to an increase in the 
number of unsheltered homeless since the U.S. adopted Housing 
First as its official policy.
    In the 5 years after 2014, when the U.S. adopted Housing 
First as its exclusive solution to combating homelessness, the 
number of unsheltered homeless increased more than 20 percent. 
This is despite significant increases in Federal funding to 
fight homelessness, and this sharp increase came after a 
welcome decline in homelessness of roughly 31 percent between 
2007 and 2014.
    The study shows that more money without appropriate policy 
changes is not the answer. Many transitional housing facilities 
in my district and around the country do not qualify for 
Federal funds because they require participation in wraparound 
services such as counseling, financial education, and career 
development as a condition of continued residency.
    These requirements are necessary and effective in many 
cases, such as for individuals recovering from addiction. The 
facilities have a demonstrated track record of successfully 
transitioning individuals out of homelessness and into 
permanent housing, yet they cannot access Federal funds or 
receive Housing Choice Vouchers.
    Mr. Husock, can you describe the importance of the U.S. 
embracing an all-of-the-above strategy for fighting 
homelessness, and the potential drawbacks of an exclusive 
reliance on Housing First, which sidelines safe, effective, and 
successful homelessness assistance providers?
    Mr. Husock. Thank you very much, Congressman Barr.
    I strongly agree with the thrust of your remarks and your 
inference. The fact that treatment facilities cannot receive 
these kinds of Federal support is antithetical to allowing 
people to graduate from their problems. And in terms of the 
count--and I am going to relate this to your question--there 
are two types of homelessness, and we should not conflate them.
    There are what the British call, ``rough sleepers,'' or, 
``street sleepers.'' That is one group of people. They have 
their own problems. They need their own approaches.
    Then, there is, ``family homelessness,'' people who are 
having a hard time affording their own unit, and are maybe 
doubled-up with their family.
    We need to focus on the rough sleepers. That is what people 
think of as the truly homeless, the truly needy, and we need to 
give them treatment and target any Federal funds toward 
treatment.
    Mr. Barr. We have a terrible addiction crisis in this 
country, and in my home State of Kentucky that is the root 
cause of much of this homelessness, and I just implore my 
colleagues, look, if you are an advocate of Housing First, 
fine, but low-income families should be able to use Housing 
Choice Vouchers in facilities that reject the failed Housing 
First model--and I would argue the morally-bankrupt Housing 
First model--and embrace successful models that require 
services that actually address the underlying cause of 
homelessness.
    It is not the lack of a roof over their head. It is that 
there is a reason why they are homeless. Let us address the 
reason, the cause, and actually help these people get back on 
their feet.
    One other question to you, Mr. Husock. The Majority have 
mentioned the fact that not everyone who qualifies for a 
voucher receives one. Their solution is to create a new, open-
ended, mandatory autopilot spending program costing taxpayers a 
minimum of $160 billion per year, in perpetuity, that would 
actually make rent less affordable through inflation pressure.
    But isn't there a better solution? One that costs 
absolutely nothing and would actually decrease permanent 
government dependency while making Housing Choice Vouchers more 
available to more eligible families, and that has reasonable 
time limits.
    You mentioned, Mr. Husock, the Delaware model. How would 
the imposition of a time limit on Housing Choice Vouchers for 
able-bodied, work-capable adults without dependents, given a 
generous time limit like 5 years, increase the availability of 
Housing Choice Vouchers for families on the wait list?
    Mr. Husock. The most advanced model in this type is in San 
Bernardino, California. Here is what they found. They report in 
their new annual report, for those who have been in the 5-year 
limit program, earned income increased 31 percent. Full-time 
employment increased 20 percent, and unemployment decreased 26 
percent.
    Time limits are not mean.
    Mr. Barr. Thank you. I yield back.
    Chairwoman Waters. The gentleman from California, Mr. 
Vargas, is now recognized for 5 minutes.
    Mr. Vargas. Thank you very much, Madam Chairwoman.
    First, I would like to say thank you for your compassion 
that you have toward the homeless and trying to find a 
solution. I really do appreciate it.
    Madam Chairwoman, I ask for unanimous consent to enter into 
the record, a letter which a coalition of bipartisan mayors, 
led by San Diego Mayor Todd Gloria, sent to the House and 
Senate leadership yesterday.
    Chairwoman Waters. Without objection, it is so ordered.
    Mr. Vargas. Thank you. This letter calls for an increase in 
formal housing investments, including expansion of the Housing 
Choice Voucher Program to all eligible households, to be 
included in the anticipated infrastructure package. Given that 
32 mayors signed this letter, a universal Housing Choice 
Voucher Program is clearly a priority for my district as well 
as many cities throughout our country, regardless of the party 
leading the city.
    I do believe that we need these vouchers, and I very much 
support them. I would also say this: I am also on the House 
Foreign Affairs Committee, and I have also traveled a lot on my 
own and with my family. When you go to Europe, you don't see 
the homeless in the same way that you see them here in the 
United States. You just don't see the number of homeless. It is 
not the case. They have the ability to house their people. We 
should, too.
    I have been following the conversation. I do think that we 
need more facilities to treat people. I absolutely do. I think 
it is terrible what California did back, releasing the people 
into the cities without giving them proper treatment. But I 
think after you get treatment, you need a house. You need 
someplace to stay. That is reality.
    So, I did a little something here that is personal. I 
thought, housing costs. And so, I took our own situation, my 
wife and I. We bought our home in 1993, and we paid $176,000 
for our home. It is not a large home. It is a little less than 
2,000 square feet, but it is in San Diego.
    So, I put it into two separate inflation calculators, first 
into SmartAsset.com, to see how much that house would be worth 
today if it just simply followed inflation. In 1993, again, we 
spent $176,000. That is what our house cost us. Today, it would 
be worth $327,000 under SmartAsset.
    I also put it under another inflation calculator, and the 
same house, $176,000 in 1993, would be worth $325,269, a 
difference of about $2,000. So, basically, $325,000 or 
$327,000.
    We just got an unsolicited offer for our house that is over 
$1 million more than that. How do you, if you are a young 
person, if you are a person starting out, how do you afford a 
house now? The truth of the matter is we do have to build more, 
especially in California and places where people want to live. 
We do have to build more houses. We do have to loosen the up 
zoning up. I agree with all of that.
    But at the same time, we have to help people who are trying 
to make it. We need these vouchers. And I do agree with the 
comment about Social Security and all of these other things 
that one side complains about how horrible it is. Now, they all 
defend the Dodd-Frank Act. That is all I heard, and I don't 
hear it now since the banks came up and said, ``Thank God for 
Dodd-Frank.'' But at the beginning, that is all I heard for 6 
years here.
    So, what about these vouchers? What is wrong with having a 
voucher for a person who needs a house? How is that wrong? 
Could someone just explain to me how people are against giving 
a person a place to stay, especially with the cost of housing 
being so high? Does anyone want to take a shot at that policy 
overall?
    Mr. Husock, I respect what you have said, and I have agreed 
with some of what you have said. But I think you might have a 
disagreement. Why?
    Mr. Husock. I will address it. I think they have their 
place, but I don't think it should be an open-ended 
entitlement. I really fear that we are going to discourage 
economic upward mobility. You are going to hit that income 
limit, and people are going to say, I don't want to earn that 
much more because then I will lose my voucher.
    That already happens. So, the theory of the program may 
look like one thing, but as it is implemented, it is another. 
If we want to have an income supplement program and let people 
decide where they want to spend their money, they may rather 
double up and save their money because they want to buy a 
house. They really might. People do it.
    And so, it might be better to increase the earned income 
tax credit. It might be better to get rid of the marriage 
penalty in the earned income tax credit. This is an income 
problem, not only a housing problem.
    Mr. Vargas. I do agree with you on flexibility. I do think 
that some people would want to double up and save their money 
to buy a house. And I do agree there should be flexibility, but 
at the same time, I have to insist that a person has to be able 
to live in a home and not on the street.
    Thank you, Madam Chairwoman. I appreciate it.
    Chairwoman Waters. Thank you very much. The gentleman from 
Texas, Mr. Williams, is now recognized for 5 minutes.
    Mr. Williams of Texas. Thank you, Madam Chairwoman.
    Increasing the government's involvement in the private 
sector can have and always does have negative consequences. We 
cannot figure that now that there are landlords who are putting 
their capital resources on the line in order to build and 
provide housing for people, they are doing that. In my 
district, the Austin Apartment Association filed a lawsuit 
against the City when they tried to force private landlords to 
accept individuals who utilized Federal housing assistance.
    Their lawsuit says that the City will be forcing property 
owners to agree to a one-sided contract with HUD, which 
included approximately 400 pages of rules and regulations. The 
lease with HUD goes far beyond a lease that a vast majority of 
renters sign in Austin. This is big government.
    Now we should not force--I repeat, we should not force 
private landlords to accept public housing vouchers if it is 
not in their best interest. You don't have to do business with 
everybody you come in contact with. Navigating the web of 
Federal bureaucracy is not an easy task, and this action would 
add significant additional cost that would be detrimental to 
many smaller landlords, and any Federal expansion of housing 
programs should remain voluntary for landlords to participate.
    So, Mr. Husock, can you talk about some of the business 
reasons as to why we should not force landlords into a 
partnership with the Federal Government, and the potential 
detrimental effects it would have on new housing developments 
being built?
    Mr. Husock. Thank you very much for that question.
    I am familiar with a property owner in the South Bronx, on 
the Grand Concourse in the South Bronx, who owns 1,800 units of 
housing voucher units, 1,800. They have a whole department of 
their property management business that is solely dedicated to 
hiring attorneys and others to process all of those vouchers, 
and they have a direct deposit from HUD set up.
    Down the street, Mr. Mom-and-Pop landlord can't afford 
those attorneys. It is going to impose additional costs on 
them. In addition, if you don't get paid, if you don't get that 
30 percent, then that is a big problem for you. And so, you 
have other reasons beyond whether it is discrimination based on 
source of income that you may not want to rent.
    Mr. Williams of Texas. Again, when the government gets 
involved, prices go up.
    If we want to expand economic opportunity in America, we 
need to support the job creators in our country. We need to, 
frankly, cut taxes, and that flows to the workers. A part of 
this includes creating a safe environment for people to live 
and for businesses to thrive.
    Mr. Husock, you wrote an article about a candidate who is 
running to be New York City's next mayor. He is a Democrat who 
is opposed to the defund-the-police movement, a new concept. 
While this seems like common sense for many of us, this radical 
policy has been embraced by many on the left.
    So, Mr. Husock, can you talk about the economic prospects 
of areas that choose to cut their police budgets and move 
forward with these radical policies?
    Mr. Husock. Well, I am not a criminal justice expert, and I 
don't represent being one. However, I will say this, that 
safety--I will just tell you a story.
    My middle son moved after high school from Boston to 
Clarksdale, Mississippi, in the Delta, and he lived in a 
majority-minority neighborhood, and he was a musician there. 
And when he got there, the police took him aside, and they 
said, ``Listen, if you buy a TV, don't put it out on the 
sidewalk. Don't put your packages out on the sidewalk. Somebody 
might know that you have this TV.''
    And his neighbors told him, ``We have to be so careful 
because it is hard for us to save money to buy things for our 
homes to increase in value because public safety is not 
assured.'' Public safety is the basis for home values, for 
wealth accumulation among all classes of people. We must have 
public safety. That is the foundation of our prosperity. That 
is why I wrote about Mr. Adams in New York.
    Mr. Williams of Texas. Okay. Thank you.
    The Federal eviction moratorium is supposed to come to an 
end at the end of this month, as we have been talking about, 
and I have been expressing some concerns about this policy 
because we simply are shifting the burden from renters to 
landlords who will still have to pay their bank notes. They 
have to still pay their costs.
    I have heard rumors that the Biden Administration is 
considering extending the eviction moratorium. So, finally, Mr. 
Husock, could you describe the effects of the eviction 
moratorium on the housing ecosystem as a whole, and then let us 
know if you think that President Biden should extend this 
policy?
    Mr. Husock. I think we need to pay the back rent, the 
arrearages of hard-hit people. I think that is appropriate, 
just as the Paycheck Protection Program (PPP) was appropriate 
and effective. The stimulus was effective and creative.
    However, in Massachusetts, when there was a pause in the 
eviction moratorium and evictions were allowed to be filed, 
motions for eviction, the majority of those evictions were not 
for nonpayment of rent. They were for lease violations.
    One of the ways in which landlords are made safe with 
disruptive tenants is to face the threat of eviction. That is 
part of landlording, too.
    Mr. Williams of Texas. I yield back. Thank you.
    Chairwoman Waters. Thank you very much.
    This hearing has nothing to do with defund the police. This 
is about housing.
    The gentleman from Florida, Mr. Lawson, is now recognized 
for 5 minutes.
    Mr. Lawson. Thank you, Madam Chairwoman, and I would like 
to welcome everyone to the committee.
    Some of the questions I have might have been responded to 
already, but I just want to make sure. This is for the whole 
panel. You are probably familiar with the study by Columbia 
University showing that the universal voucher program will lift 
9 million people out of poverty and reduce child poverty by 36 
percent, and decrease racial disparities and poverty rates 
among White and Black households.
    Clearly, the research shows that a universal voucher 
program could help improve millions of people's home lives. 
However, the current Housing Choice Voucher Program (HCVP) 
standard requires landlords to go through a lengthy leasing 
process, especially compared to the standard leasing process. 
After the rental application is completed, the unit must be 
inspected and approved. Scheduling units can take a long time, 
and a landlord loses income while the unit is off the market.
    Landlords can incur additional costs if improvements are 
required by the HCVP. The program does not cover these costs, 
the need for improvements made for inspection approval and the 
overall leasing process. Can any of you support the voucher 
program in this regard, and what can be done to cover some of 
these costs and at the same time give the landlords a little 
break in what they have to do?
    That is for the whole panel.
    Mr. Metcalf. Congressman, I can start off by responding. I 
think you have raised a really good point. I don't think these 
are impossible challenges. I think these are actually 
challenges for which we largely have the answers, but we need 
to scale up.
    As it relates to the inspection process, it is possible to 
differentiate those components of the physical quality of the 
structure that really represent true health and safety 
components versus ones which are more minor in nature, and to 
focus our oversight on those elements. We also see an 
increasing use of technology that can be scaled up, where folks 
are using video technology or photo records, doing spot 
inspections that make this a little bit less onerous for owners 
and a little bit more cost-effective for voucher-administering 
entities.
    And lastly, I think there are good programs that are out 
there that do provide financial incentives to owners to offset 
some of these costs. I think that is an important part. The 
bipartisan Coons and Cramer bill in the Senate is a good 
example of trying to take that one level further, which I think 
makes a lot of sense in terms of helping owners to deal with 
the kinds of challenges that they face in bringing their 
housing units up to a reasonable level of quality.
    Mr. Lawson. Does anyone else want to respond?
    Mr. Husock. Those are certainly commonsense suggestions. I 
would also point out the importance of expanding the Moving to 
Work Program, which allows housing authorities which administer 
Housing Choice Vouchers to choose how they want to spend the 
funds that they do have and not have them all be categorically 
directed.
    And that gives them the flexibility to direct resources 
where they are needed most. That program has been stalled at a 
very low level for many, many years. Its experimental results 
have been good. The time has come to expand Moving to Work.
    Ms. Oliva. I would like to jump in here and just note that 
there are also--I agree with Ben in what he laid out in terms 
of improvements that we can make to the program. I think all of 
us have suggested different kinds of improvements, including to 
the inspection process, and providing some flexibility maybe 
through admin dollars or through other sources of funding to do 
incentives for landlords.
    I know that in a number of communities, local banks have 
helped set up risk mitigation funds that provide some security 
for landlords so that if there is damage to a unit, it will be 
paid for through that risk mitigation fund. I know that the 
emergency solutions grants funding that was provided through 
the CARES Act allows specifically for landlord incentives like 
double the security deposit and other types of incentives for 
landlords, and I would like to take a look at that data and how 
that played out once that program is completed.
    So, there are a number of good public-private ways to 
ensure that landlords are also protected in the use of Housing 
Choice Vouchers because this is about both the tenants and the 
landlords who are providing the units.
    Mr. Lawson. Okay, thank you. And I had another question, 
Madam Chairwoman, but I will yield back. My time was running 
out on me.
    Chairwoman Waters. Thank you very much. The gentleman from 
Arkansas, Mr. Hill, is now recognized for 5 minutes.
    Mr. Hill. Thank you, Chairwoman Waters. This has been a 
very interesting hearing. I am delighted to be able to work on 
the Housing and Insurance Subcommittee as ranking member, and I 
look forward to working with my friend, Mr. Cleaver.
    Mr. Husock, it is good to see you again. In Arkansas, the 
average rent in the metro Little Rock area for 3 bedrooms is 
about $1,100, and that compares to $2,700 out in Los Angeles. 
So, we have a very affordable housing market in Little Rock.
    If we were to have an entitlement program in vouchers, what 
would happen to that affordability in a place like Little Rock, 
in your view?
    Mr. Husock. Well, as I said previously, any time you 
increase demand, you are at risk of pushing up the prices, 
because you have the classic preconditions for inflation. So, I 
think that is a risk.
    But I love that you are pointing out that there is 
affordability now, and we are seeing an exodus from the State 
of California. It has lost population for the first time in its 
history. People are discovering Little Rock. They are 
discovering Fayetteville. They are discovering Buffalo. They 
are discovering my hometown of Cleveland.
    You can work from home. We are having a sorting out of the 
housing affordability problem. This is not the time for a vast 
intervention in the market while the market itself is 
adjusting.
    Mr. Hill. Yes. I think that is a good point. And of course, 
the dream of a voucher program would be that a family would 
have that and be able to move to a better neighborhood or a 
better school or closer to a better job. And we have been 
talking a lot about landlords, but what about the portability 
of a voucher?
    If I have a voucher from the public housing authority in 
Little Rock, may I use that public housing voucher and move to 
a community 30 minutes away, if that is better for me?
    Mr. Husock. It depends on the housing authority, but that 
is happening more. But I would like to return to this idea of 
the opportunity neighborhood. To me, the idea that you have to 
move to a, ``better neighborhood,'' in order to have a better 
life, when did we give up on the idea that poor neighborhoods 
can be good neighborhoods?
    Mr. Hill. Yes.
    Mr. Husock. The Community Development Block Grant Program 
(CDBG) was about doing something about that. We are not going 
to have enough vouchers for all poor people to move to rich 
neighborhoods. That is just not going to happen. We have to 
address ourselves to the core public services of low-income 
neighborhoods: safety; education; and parks. That is what we 
have to do rather than saying we are going to pay everybody to 
move out.
    Mr. Hill. Amen. We need to get you a pulpit. That is 
excellent preaching. I agree with what you are saying.
    I was looking at the San Bernardino County website this 
morning, and they say that their goal in San Bernardino County 
is for all families to prosper and achieve well-being. And I 
also spoke to the mayor of San Bernardino, the County seat of 
that County.
    Mr. Husock, I was very intrigued by your testimony. You 
talked to Mr. Barr about it briefly. Can you go into a little 
bit more detail about the priorities there in San Bernardino 
County, California, about how they are successfully moving from 
entitlement to empowerment for their families?
    Mr. Husock. Yes. First of all, it is a voluntary program. 
If you move into the San Bernardino Housing Authority, you can 
agree--it is voluntary--to a 5-year ceiling on your assistance. 
But if you do agree, you get a flat rent for those 5 years. 
That is just a big deal.
    Would you want to live in a place where the more money you 
earn, the higher your rent goes? And yet, we do that to all 6 
million poor households in public housing and Housing Choice 
Vouchers. San Bernardino says if you want to save money, we 
will have an escrow account for you, if you want to graduate 
from this Housing Choice Voucher Program and buy a house rather 
than be consigned to rent. You don't accumulate wealth in 
rental housing unless you put it to some other use. The failure 
of public housing was always that.
    So, the results were very positive. Earned income for 
families in the program increased by an average of 31.4 percent 
over 4 years. Full-time employment increased 20 percent, and 
unemployment decreased 26 percent. It is a small place. It is a 
small program. But it is really worth looking at those results 
that can be had by changing the terms of receipt.
    Mr. Hill. And again, that speaks to the local market 
conditions, the local supply and demand, the local innovation 
of our communities to try to solve these problems that are 
closest to the people, and why one big, one-size-fits-all 
national entitlement program, I think will just create more 
dislocation instead of more help.
    I thank you for the discussion. And thank you, Madam 
Chairwoman. I yield back.
    Chairwoman Waters. Thank you. The gentleman from Illinois, 
Mr. Foster, is now recognized for 5 minutes.
    Mr. Foster. Thank you, Madam Chairwoman.
    I would also like to apologize for having missed part of 
this hearing. And I hope I am not duplicating other questions 
that have been asked.
    Ms. Cunningham, in your testimony, you spoke of providing 
carrots and sticks for land use and zoning reform, citing the 
issues that arise with exclusionary zoning requirements. And 
one idea that I am interested in exploring is to have some of 
those carrots and sticks be based on big-data analytics, where 
you say, okay, if this person exercises this voucher in this 
particular neighborhood, that there would be a benefit given to 
the landlord, given to the community that accepts it, and as 
well as given to the person.
    And is this something where, instead of having absolute 
hard definitions of, this is an Opportunity Zone, and this is 
not, you just have sort of a big-data analytic benefit, if you 
understand what I am saying. Have things like this been looked 
at?
    Ms. Cunningham. Thanks for the question, first of all. I 
agree that there needs to be carrots and sticks. I haven't 
thought--it is an interesting proposal to think about big data 
and how to use that in the carrots. And I think one of the ways 
we are thinking about and recommending land use and zoning is 
really having the Federal Government provide some carrots in 
terms of competitive grant programs, and then sticks, 
localities get a lot of transportation funding. And so, 
withholding funding from communities that are not providing and 
producing affordable housing, I think is really critical.
    I want to add one more thing around the supply and demand 
issue. I do agree that land use and zoning is really important, 
but there has been a lot of talk about housing vouchers 
expanding and driving up costs when the fact is that most of 
the people who qualify for this expansion, if we were to 
actually expand to universal housing vouchers, are actually in 
housing right now.
    And so, that wouldn't actually increase the demand for 
units; it would just make it possible for the tenant to be able 
to afford their housing. And it would also allow the landlord 
to be paid instead of the tenant struggling each month. So, I 
just want to really highlight that as an important point.
    Mr. Foster. Thank you, and I agree with that. Any run-up in 
the rental prices would presumably be temporary, and the free 
market would take over and say, hey, there is a possible 
opportunity to make more rental units that fit the voucher 
characteristics.
    Does anyone else have any comments on that, whether 
carefully designed, positive financial incentives for the 
community as well as the voucher holder and the landlord might 
provide the proper mix to encourage communities to build more 
voucher-eligible and voucher-welcoming housing?
    Mr. Husock. I would just say this: New housing is very 
expensive. I think the idea that we should build new housing 
for the poorest people with subsidies is the most ambitious 
kind of affordable housing.
    For instance, with the Low-Income Housing Tax Credit 
Program, in the State of California, those units are costing 
close to $400,000 per unit. So, we are not going to get that 
much housing bang for our buck, as they always say in Federal 
budget terminology. It is better for the private market to 
supply low-cost--in answer to a question I dodged before about 
construction methods--manufactured housing. And I don't mean 
only mobile homes. That is bringing down costs. We ought to 
look at that rather than deep subsidies.
    Mr. Metcalf. Congressman, if I may jump in on that, I think 
we live today in a world in which the new multifamily housing 
that is getting built is either deeply subsidized, traditional 
affordable housing, or often higher-end market-rate housing. I 
think one of the promises of moving towards a huge expansion of 
the voucher program, universal voucher, could be an ability for 
market-rate multifamily developers to be able to perform over 
both the vouchers and hopefully in tandem with much shallower 
subsidy sources that are less onerous--tax-exempt bonds, 
Federal Housing Administration-insured debt programs--that 
would allow for a stimulus, if you will, to get more housing to 
get built and really leverage the market rate side of things to 
be doing that.
    I think that is something that we have missed a little bit 
in the dialogue, but I think should be applied.
    Mr. Foster. Thank you. And my time has nearly expired, so I 
will yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
Ohio, Mr. Davidson, is now recognized for 5 minutes. Is Mr. 
Davidson on the platform?
    Mr. Davidson. Yes, Madam Chairwoman, thank you.
    I want to thank our witnesses for their testimony here 
today, and I appreciate the chance to discuss the important 
issue of homelessness here in the United States. The issue has 
only been exacerbated by the pandemic this past year, and it is 
especially heartbreaking for me to see homeless veterans, in 
particular.
    According to an article in the Military Times from this 
past March, veterans make up about 8 percent of the homeless 
population. And for people who previously served our country to 
defend the American Dream, they especially deserve a solution 
that will provide them with every opportunity to achieve it.
    I will admit that I am a bit intrigued by the idea of 
vouchers. I believe vouchers following every student would 
improve our schools. Perhaps, as some have argued today, 
vouchers to all of those in our Federal housing safety net 
would improve the quality of their housing options.
    I am also encouraged that some of my colleagues who want to 
cancel those with income from sources they personally disfavor, 
like fossil fuels, want to now embrace civil liberties and 
enact nondiscrimination clauses on sources of funds. I think it 
would be great to see it embraced universally for a wide range 
of things, and frankly, these kinds of authoritarian uses of 
payment systems for power have rightly been the focus of our 
committee in the past, things like redlining and practices that 
block people from access to the financial system by using money 
as a means of control rather than a means of payment systems.
    These are principles that we are talking about today that I 
find interesting, and certainly we have a problem with 
homelessness in the country, as we can see with tent cities in 
our nation's capital and in so many other places around the 
country.
    Mr. Husock, I would like to follow up on a conversation 
that you had with Senator Toomey, when you were at the Senate 
hearing in April. Purchasing a home is the cornerstone of the 
American Dream for many, and in the past, Congress has pushed 
policies that attempt to help people purchase a home. 
Ultimately, these policies will sometimes put people on a path 
towards foreclosure. Can you talk about the dangers when 
Congress tries to impose a quick fix when it comes to promoting 
affordable housing?
    Mr. Husock. The question implies questions about affordable 
housing mandates and Fannie Mae and Freddie Mac, which are 
beyond the scope of this hearing, so I hope I do not stray too 
far. But I have been concerned, and have written and published 
for many years, about the impact on working-class, low-income 
homeowners who find themselves in high-delinquency areas 
because of low-doc, no-doc loans that were--they were not all 
initiated in the housing crisis because of affordable housing 
mandates, but to some extent they were, and that was modeled by 
the Federal Government.
    My concern is always for the people, as Bill Clinton said, 
who work hard and play by the rules. And if they are making 
their payments and the fellow next door is not making his 
payments because he never should have owned that house in the 
first place, you are hurting the hard-working working class. 
And the fact that communities of color were disproportionately 
harmed in the 2008 financial crisis was a tragedy, and it was 
caught up in all of that.
    Mr. Davidson. Well, I appreciate you recognizing that, and 
frankly, when people are foreclosed on, they often become 
homeless, maybe not structurally forever but for a period of 
time. And then, when we talk some of the other issues, earlier 
this year, the Majority pushed for $80 billion in public 
housing capital funding to be included in the Administration's 
infrastructure plan. If the current proposal before us today 
were to become law, and everyone was guaranteed a voucher if 
they fell below certain income levels, and landlords were 
forced into participating, why would we need public housing? 
Wouldn't the voucher system cover the need?
    Mr. Husock. We have public housing and we need to reform 
public housing. We need to reform the terms of the voucher 
program. There are as many people in public housing today as 
there are in vouchers. However, there is a lot that we can do 
to extricate people from public housing.
    Mr. Davidson. I appreciate that, and the need for reform is 
why I have proposed the People CARE Act, and just like a lot of 
the programs that are in there that do need reform, the 
solution generally, and just like today, is to launch a new 
program rather than to look at all of them. So, I hope we will 
come at it with a holistic approach, and that we can enact the 
People CARE Act, and people who are interested on both sides of 
the aisle, I would love to talk with you. Thanks for your 
expertise today. My time has expired, and I yield back.
    Chairwoman Waters. Thank you. The gentleman from Illinois, 
Mr. Casten, is now recognized for 5 minutes.
    Mr. Casten. Thank you, Madam Chairwoman, and thank you to 
all of our witnesses. This has been a fascinating hearing. I 
hope you will allow me to deviate a little bit from the Section 
8 discussions. There is just a wonderful homeless support 
services company--I live in DuPage County in Illinois--
DuPagePads, which really exists upstream of the Section 8 
issue. They provide temporary housing, transition services, and 
job training, often in congregate facilities and church 
basements. And if they fail, Section 8 does not matter, because 
we do not get the people off the street and into the system, so 
they come in and look at longer-term services.
    In talking with them in preparation for this hearing, there 
are two things. I want to start with Ms. Cunningham and just 
get your thoughts on these, and then, time permitting, get some 
others. The first was that they said that the single hardest 
families they have to place are large families, that with our 
affordable housing, Section 8 and otherwise, it is much easier 
to place a single individual than, in one case, they have a 
family of nine. They cannot get them out of a church basement 
or a hotel in this current COVID moment.
    Can you speak at all to, understanding that we have a 
problem with affordable housing in this country, what about the 
types of housing? Is there anything we can do to make sure that 
we have types of housing that better match to the need? Ms. 
Cunningham?
    Ms. Cunningham. Thanks for the question, Congressman. I do 
think that it could be challenging to help a family who has a 
lot of children or is also including Grandma or Grandpa into 
the private market. There are not enough big-bedroom units for 
those families. Part of the Housing Choice Voucher Program is 
to ensure that those families are getting extra assistance in 
navigating the private market and finding those landlords that 
do actually have those units.
    But then also, and I noted this in my testimony, we not 
only need voucher assistance but we need to develop housing 
units. So, the expansion of the Housing Choice Voucher Program 
should be within the broader strategy of both investing in 
vouchers but also investing in development of units.
    Mr. Casten. Okay. I want to shift, if I can, to COVID, sort 
of orthogonally. When COVID hit--most of their housing is in 
churches and other congregate facilities that simply did not 
work anymore. And we had a lot of really painful conversations 
about what they were going to do with that, and they moved 
pretty nimbly and got hotels to volunteer spaces. They didn't 
have the budget for it, but thankfully, through some of our 
care support, they were able to provide a budget and get people 
into hotels. And it was pretty painful.
    And in debriefing with them now, as we sort of start to 
emerge from COVID, they said in hindsight that was actually 
hugely beneficial. They have seen increases in the health 
quality because, as they put it, if you have a door that locks, 
and a shower, a whole bunch of other problems go away. They 
have seen a huge surge in children in their care, not because 
the children were housed before but because parents might, 
rightfully, have had some concerns about bringing a child into 
a group sleeping facility, but are okay in a hotel. And they 
were pleading with me, and saying, ``Can you please make sure 
that the financial support continues?''
    So if you had a wish list, which of the temporary changes 
we made during CARES would you like to see continued, to make 
sure that we don't backtrack, and all of a sudden, take one 
step forward and two steps back as these programs expire?
    Ms. Cunningham. I was going to say that I wanted to start 
with that, but also that Ms. Oliva or Mr. Metcalf might have a 
great response. But let me start by saying that it is really 
important that we re-envision our shelter system, our 
congregate shelter system, because we found out during the 
pandemic that it didn't work and that we do need to have more 
individualized units, like single-room occupancy units for 
people who have temporary housing needs.
    So, let me turn it over to Mr. Metcalf or Ms. Oliva.
    Mr. Metcalf. Just to quickly observe, if I can, one of the 
great triumphs, I think, of the last year has been our ability 
to repurpose so many hotels to serve folks coming off the 
streets. In California, some 94 hotels have been converted. 
Some 6,000 new units have been created. But much of that has 
been stopgap. There has not been the sort of capital put in 
place to be able to continue to house those individuals, to 
keep them sort of stably located and assisted. And so we really 
are at risk of seeing that all fall apart as we run out of the 
operating money to keep those folks stably housed.
    In California, the governor has proposed some $3.5 billion 
to do stage funding to capitalize reserves, but it is a really 
awkward way to solve the problem. We definitely need that 
additional voucher assistance to complement these interventions 
for the long term.
    Ms. Oliva. And I would agree with both Ben and Mary, but 
also add that in the American Rescue Plan, funding for 
homelessness assistance does include, the HOME program does 
include some funding in order to sustain noncongregate shelter 
in the long run.
    Chairwoman Waters. Thank you very much.
    Mr. Casten. Thank you. I yield back.
    Chairwoman Waters. Mr. Kustoff is now recognized for 5 
minutes.
    Mr. Kustoff. Thank you, Madam Chairwoman, and thank you for 
conducting today's hearing. And thank you to the witnesses as 
well.
    Mr. Husock, with the Housing Choice Voucher Program, I 
think we can all agree that there are significant changes that 
need to be made to the program. One issue that has come to my 
attention is the funding formula for the program and that the 
Administration expenses the issuing agency or the authority. 
And if I could, the formula fails to account for the logistical 
differences of agencies running the voucher program on a 
Statewide basis as opposed to authorities that handle vouchers 
for a city or county or municipality, et cetera. Many of the 
State agencies lose money due to--and I am going to 
characterize it as a one-size-fits-all formula. In my opinion, 
ultimately that harms the consumers in the form of reduced 
services and assistance.
    My question is about your familiarity with the formula, and 
what would your thoughts be about updating the one-size-fits-
all approach to it?
    Mr. Husock. Thank you very much, Congressman. Of course, 
Federal funds are allocated on those kinds of formulas in all 
sorts of programs. We have 3,000 public housing authorities in 
this country. That is a whole heck of a lot of overhead. And 
so, it may be that we can consolidate housing authorities, 
whether it is on a statewide or a regional basis, that might 
make it more efficient to distribute those vouchers with lower 
overhead. I still think the most important thing is to change 
the terms of the vouchers, but I would welcome a more efficient 
allocation, for sure.
    Mr. Kustoff. So when you talk about changing the terms, 
what are some things that you would look at, if you could wave 
a magic wand?
    Mr. Husock. Well, the first thing I would do is to allow 
people to not have to pay more rent when they earn more income. 
I know I have said it before, but it just pains me to think of 
people who are struggling to get ahead, to get a higher-paying 
job, and knowing they are paying a higher marginal tax rate 
than Warren Buffett. We know that, right?
    Mr. Kustoff. Right.
    Mr. Husock. We know it now, anyhow. So, why should they pay 
30 cents on the dollar more in rent, and why should they be 
encouraged not to report their income, to have a second income 
in the house that they don't report, or they don't want to have 
it be known? So that, to me, if I could change one thing 
tomorrow, I would have flat rents for all new tenants in 
exchange for a ceiling of 5 years for housing vouchers.
    Mr. Kustoff. Thank you. If I could shift gears for just a 
moment, you have been critical about how the exclusionary 
zoning laws have been used in municipalities across the 
country. Could you elaborate for a moment about how the zoning 
laws limit the supply of affordable housing and ultimately harm 
lower-income Americans?
    Mr. Husock. Yes. They harm middle-income Americans, all 
sorts of income levels. When you have two-acre zoning with one 
house on it, and if it was quarter-acre zoning, do the math; 
you would have 8 houses. That is a lot more houses. And so, 
that just rebounds through our system. I don't agree with one 
of my colleagues who said that we need to use the stick of 
Federal transportation funds and threaten to withdraw funds. I 
will tell you what: A lot of wealthier communities in this 
country don't receive any CDBG funds. They don't receive any 
DOT funds. They would be exempt, and they may be the worst 
offenders.
    So, I think we have to have HUD persuade our 
municipalities, through model zoning, that, look, it is in your 
interest to do this. It is in the interest of your children and 
your grandchildren, so they can stay where they grew up. It 
doesn't mean high-rise public housing. That is what they are 
afraid of. That may be politically incorrect to say, but that 
is what they are afraid of. We have to say no, we are talking 
about two-family houses on small lots, the way we built before 
zoning came into this country everywhere. We knew how to build 
affordable housing all over this country, but we forgot how.
    Mr. Kustoff. Thank you, Mr. Husock, and with that, I will 
yield back my remaining time. Thank you, Madam Chairwoman.
    Chairwoman Waters. Thank you very much. The gentlewoman 
from Massachusetts, Ms. Pressley, is now recognized for 5 
minutes.
    Ms. Pressley. Thank you, Madam Chairwoman. Thank you for 
being just so steadfast on this issue. I was very proud, in my 
very first Financial Services Committee hearing, that what was 
before us was your bill to end homelessness. So, I thank you 
for your steadfast leadership in this space.
    While the Housing Choice Voucher Program has a proven track 
record of reducing homelessness and improving lives, especially 
for domestic violence survivors, veterans, Black and Brown 
households, and persons with disabilities, it has yet to reach 
its full potential. Only one in five people who qualify for one 
currently receives one, and the average wait time, in some 
towns in the Commonwealth of Massachusetts is 10 years, a 
decade.
    Transforming the Housing Choice Voucher Program into an 
entitlement program, similar to Medicare or Medicaid, is the 
bold, transformative, and necessary change that my constituents 
need right now. Constituents like a single mom in Hyde Park who 
is currently battling cancer and has been on the Housing Choice 
Voucher Program waitlist for 5 years. Or an elderly couple in 
Roslindale, surviving on fixed Social Security disability 
insurance, and struggling to keep up with the rising cost of 
rent. They have been slipping further and further into poverty 
on the waitlist for 8 years. And a single mother in Boston who 
left her marriage due to domestic violence has been living in a 
two-bedroom unit with her five children while waiting on a 
voucher for more than 4 years. And a frontline hospital worker 
and single mom in Dorchester who has been just barely getting 
by while serving on the front lines of the pandemic; she has 
been on the waitlist for 17 years.
    Providing a universal voucher program would lift 9 million 
people out of poverty, reduce child poverty by 36 percent 
overall, and by over 80 percent for families of color, and 
decrease racial disparities and poverty rates among White and 
Black households.
    Ms. Oliva, countless families across my district who 
qualify for, but are still awaiting, a voucher are extremely 
vulnerable to homelessness once the eviction moratorium 
expires. These families are already stretched thin due to the 
pandemic, illness, trauma, and low wages, and are left making 
unconscionable choices so they can pay their rising rent costs. 
Can you please explain the potential--why it is transformative 
for a universal Housing Choice Voucher Program and its 
alignment with the fight for racial justice?
    Ms. Oliva. Thank you so much for that question. I think 
that might be one of the most important things for us to 
examine as we think about Housing Choice Voucher expansion. We 
know that because we have insufficient funding for this 
program, it actually prevents assistance from reaching 15 
million low-income people of color who live in rental housing 
and face unaffordable housing costs, and that, as you noted, 
expanding vouchers for all eligible people would have a 
significant impact on poverty, which would benefit people of 
color the most, and they would experience the steepest declines 
in poverty.
    We also know that people of color, especially Black 
families and individuals, are overrepresented in homelessness. 
So we can understand, really, looking at it from a racial 
justice perspective, how housing justice and racial justice 
actually overlap. They are the same thing, because without 
housing justice it is really hard to achieve racial justice.
    Ms. Pressley. Thank you. And before my time runs out, I 
also wanted to ask you to comment on the criminalization for 
those who are unhoused, that has increased over the last 15 
years. What impacts would universal vouchers have for helping 
marginalized populations avoid homelessness and 
criminalization?
    Ms. Oliva. As I noted in my testimony, in 2020, we saw, for 
the first time since we have been collecting this data, that 
the number of individuals who are living on the streets 
exceeded the number of individuals who are living in shelters. 
This creates tension and criminalization in communities across 
the country that is retraumatizing for people who are 
experiencing homelessness and who are quite vulnerable. The 
expansion of Housing Choice Vouchers would really allow for a 
massive decrease in the number of people in unsheltered 
locations and an increase in the amount of permanent supported 
housing, like HUD-VASH, that would be available for folks who 
are living in unsheltered locations.
    Thank you for that question.
    Ms. Pressley. Thank you.
    Chairwoman Waters. The gentleman from Tennessee, Mr. Rose, 
is now recognized for 5 minutes.
    Mr. Rose. Thank you, Chairwoman Waters and Ranking Member 
McHenry. I also want to thank our witnesses for being here 
today. Something that I don't think has gotten enough attention 
during this hearing is just the sheer cost of implementing a 
program such as universal housing vouchers. As our national 
debt climbs above $28 trillion, we should not be adding even 
more mandatory spending programs, especially to the tune of 
roughly $160 billion per year.
    Mr. Husock, I do not believe that a new housing voucher 
entitlement would do anything to address the main cause of high 
housing cost, which is the inability of localities to produce 
more units of housing. Now, I am thrilled you mentioned 
manufactured housing during Representative Foster's time, 
because in the 6th District of Tennessee, which I represent, 
12.9 percent of total occupied housing units are manufactured 
homes. Manufactured housing is the most affordable home 
ownership option available nationwide for minorities, and 
underserved and low-income borrowers. According to the U.S. 
Census data, 90 percent of new homes under $75,000 are 
manufactured housing.
    Mr. Husock, could you expand on how manufactured housing 
could be key as communities develop strategies to address their 
affordable housing shortages?
    Mr. Husock. Thank you, Congressman Rose. The first thing 
they have to do is to permit it to be used in their localities. 
That is a zoning issue, a building code issue. But manufactured 
housing is not just mobile homes anymore. We are talking about 
a full-on substitute for so-called stick-built housing, which 
can be done on a mass scale.
    And this goes back in history. I mentioned Levittown, which 
was the archetype American post-war suburb. That is how Mr. 
Levitt made those houses so cheap, is he had set up an assembly 
line. It is time-proven. We need to use those methods again. So 
yes, it is a big part of it.
    Mr. Rose. Mr. Husock, you discussed earlier in the hearing 
about the importance of working at the city and town level for 
better city planning to increase the housing supply, and you 
have just been referring to that again. What would be your 
suggestions for us, as legislators at the Federal level, as we 
go and talk with our local leaders?
    Mr. Husock. I think, again, this is something that you, as 
people who are in the political life, are best at, and that is 
persuasion. And persuasion has to be built on the idea that, 
why don't we have two-family houses in this town anymore? Why 
don't we have three-family houses? Why don't we have small 
apartment buildings? People could move from those. Communities 
want replacement populations. In order to have new, young 
families move in, they have to have points of entry. If they 
don't, then older people are going to sit in their homes and 
age out, and communities are going to be in trouble without 
replacement populations.
    So, I think you can do a lot to persuade that, by the way, 
if you don't do this, HUD is going to come at you with a big 
stick, too.
    Mr. Rose. Thank you. Ms. Oliva, I know that during your 
time at HUD, you worked to find ways to help cities stretch 
their dollars, so this question is for you. I read an article 
earlier this week about a report from LA's chief administrative 
officer about a homeless campground the City is setting up in a 
parking lot. It appears that the City is allowing homeless 
individuals to move their tents into this parking lot, in a 
centralized location, so that they can provide them with 
running water, hygiene stations, and other services.
    What is alarming is that it is costing Los Angeles $2,663 
per participant, per month, to provide a tent in an empty 
parking lot. You could provide every participant with two one-
bedroom apartments for that price. According to the report, 
L.A. is using CARES Act funding to do this. How is it possible 
that providing someone a tent in a parking lot costs $2,663 per 
participant, per month?
    Ms. Oliva. Thank you for that question. While I am not 
familiar with those particular numbers that you are citing, 
shelter is expensive. That is actually why we are having this 
conversation today, because if we had universal housing 
vouchers available for those folks who are in unsheltered 
locations, we could actually be accessing housing resources for 
people who are experiencing homelessness, who are elderly, who 
are young people, who are mentally ill, and the services they 
need to maintain those houses. So, I actually think that it is 
important to look at the housing side of the question.
    Mr. Rose. Thank you. And Chairwoman Waters, I yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
New York, Mr. Torres, is now recognized for 5 minutes.
    Mr. Torres. Thank you, Madam Chairwoman. I represent New 
York 15, the South Bronx, which, during COVID-19, has been 
shown to be what I call the essential congressional district of 
New York City. It is home to hundreds of thousands of essential 
workers who put their lives at risk during the peak of the 
pandemic so that the rest of the City could safely shelter in 
place. It is nothing short of a moral outrage that our 
essential workers, upon whom all of us depend, increasingly 
cannot afford to live in a city or a country that could not 
survive and succeed without them.
    As far as I am concerned, housing is as much a human right 
as education, and housing ought to be as much of an entitlement 
as education. The best path to housing as a human right, to 
housing as an entitlement, is housing vouchers for all, which 
has been proposed by Chairwoman Waters. According to the 
Harvard Joint Center for Housing Studies, in 2019, pre-COVID, 
there were 37 million Americans who spent more than one-third 
of their income on rent, and nearly half of those Americans 
spent more than one-half of their income on rent. Housing 
vouchers for all would bring affordability to tens of millions 
of Americans.
    The American Jobs Plan proposes an historic investment of 
over $300 billion in housing, but more important than the 
dollar amount is how those dollars are spent. If we expand 
housing supply without expanding housing subsidy, we run the 
risk of creating housing without actual affordability for the 
poorest of Americans. We run the risk of creating the illusion 
rather than the reality of affordable housing. Less than 1 
percent of the housing funds in the American Jobs Plan has been 
set aside for rental assistance.
    My first question is for Ms. Oliva. What is the danger of 
prioritizing housing supply to the exclusion of housing 
subsidy?
    Ms. Oliva. Thank you so much for that question, 
Congressman. I think you are exactly right. We know that 
housing vouchers are only available for one in every four 
eligible households, and we know that we need a balanced 
approach. We have talked about that quite a bit in this hearing 
today. We need both supply side investments in areas that have 
a supply shortage and we need affordability investments in many 
areas across the country.
    As I noted in my testimony, in most cases, unless a 
household also receives a voucher or other type of rental 
assistance, construction subsidies that we are talking about on 
the supply side generally don't produce housing with rents that 
are affordable for those households with income at or below the 
poverty line, and that is who we are talking about. When we are 
talking about people who are experiencing homelessness, we are 
talking about people with incomes at or below the poverty line.
    So, in order to make that reduction in homelessness and to 
really create both a prevention aspect of this program as well 
as an exiting homelessness aspect of this program, we need the 
affordability investments for areas that both have the supply 
shortage and where affordability is the main problem.
    Mr. Torres. And I know much has been said about cost, but I 
guess my question for you and for others is, what is the cost 
of homelessness and housing insecurity? If you lack basic 
housing stability in your life it has a destabilizing effect on 
every aspect of your life. It makes you more vulnerable to 
substance abuse, mental illness, depths of despair, contact 
with the criminal justice system, a whole host of social 
challenges (inaudible) society of fortune. Do you agree that 
the cost of doing nothing or doing too little far exceeds the 
cost of housing vouchers for all?
    Ms. Oliva. Yes, I think the way that you framed that is 
exactly right. There is a cost to our public systems--jails, 
hospitals, child welfare system, all of the public systems, and 
police--that interact with people who are experiencing 
homelessness in ways that they wouldn't have to interact with 
them if folks actually had safe, stable, and affordable 
housing. But more importantly, there is a human cost to the 
decisions that we are making here, and that human cost is about 
the people who are experiencing homelessness and the damage and 
trauma that is created by experiencing homelessness, especially 
unsheltered homelessness, and especially kids and young adults.
    Ms. Al-Mansour. If I can add, and especially women, and 
especially women with children and members of the LGBTQ 
communities find themselves very vulnerable. I have had clients 
who had no mental health issues, lost their Section 8 voucher, 
and became more addicted. Nobody would take their Section 8 
voucher. They then were made homeless, slept in their car, the 
car was impounded, and they lost everything. I have had clients 
who were raped on the streets because then they lost 
everything. And then, developmental health issues that they 
never had before, because of homelessness. And that is 
something I wanted to say earlier in terms of what is the 
number one cause of homelessness, which is loss of housing. And 
that is what creates a lot of mental health and physical 
issues.
    Ms. Oliva. (Inaudible) forms of affordable housing like 
supportive housing are more cost effective than psychiatric 
hospitalization and incarceration.
    Chairwoman Waters. Thank you very much. The gentleman from 
Texas, Mr. Gonzalez, is now recognized for 5 minutes.
    Mr. Gonzalez of Texas. Thank you so much, Madam Chairwoman. 
And my question, well, my comments and questions are something 
that Mr. Husock touched on earlier, but to Ms. Oliva and Ms. 
Cunningham, throughout the pandemic, millions of unassisted 
renters have struggled to pay their rent, meaning some 
landlords have lost needed income in supporting their rental 
properties, especially the mom-and-pops that haven't been able 
to make their mortgages--
    Chairwoman Waters. Is Mr. Gonzalez still on the platform? I 
do not hear Mr. Gonzalez. He started out and he has stopped. I 
don't know what has happened. If Mr. Gonzalez is not prepared 
to continue, I will move on to the next person, and I will come 
back to Mr. Gonzalez.
    Next on the platform, we will have Mr. Lynch from 
Massachusetts. Is he available?
    If Mr. Lynch is not available, Ms. Adams, you are 
recognized for 5 minutes.
    Ms. Adams. Thank you, Madam Chairwoman. And thank you to 
the ranking member for hosting this hearing today, and to our 
witnesses, and thank you very much as well. This is an 
incredibly urgent conversation.
    I want to first ask a follow-up in terms of the source of 
income. Unfortunately, there are too many documented cases of 
housing providers not accepting payment because they choose to 
discriminate against the source, such as the Housing Choice 
Vouchers. At the local level, I am particularly proud of the 
work that both my City of Charlotte, and the advocates 
throughout the 12th District, have done to address this source 
of discrimination income. But we still have a long way to go to 
make access to housing equitable. You have already heard how 
long the wait is, but in my district it takes approximately 11 
years to receive a voucher, based off of the current rate of 
admission to the Housing Choice Voucher Program. Twenty-one 
percent of families who receive a voucher were unable to find 
housing by the time that the voucher expired, after 100 days.
    So, Ms. Cunningham, can you describe why it is so important 
that we move swiftly to end source-of-income discrimination 
nationwide?
    Ms. Cunningham. Thanks for the question. I do think it is 
important. When we studied this issue in 2018, we did find that 
discrimination is a significant problem. And as I mentioned 
earlier, only one out of three voucher holders right now are 
protected by those local source-of-income protections. And so, 
having a national source of income protection is really 
critical, not only to protect the voucher holders that this 
expansion would cover, if passed, but also existing voucher 
holders who are on the program right now.
    Ms. Adams. Thank you. According to the Urban Institute, we 
know that the population of unsheltered individuals 
experiencing homelessness has risen dramatically over the past 
several years, and in my community and those across the 
country, we have seen tent cities rise to accommodate these 
individuals. In Charlotte, using CARES funds, our local 
government was able to help over 200 unsheltered individuals 
living in a tent city find temporary housing in a hotel where 
they received access to other services.
    Ms. Oliva, how would expanding access to vouchers help our 
unsheltered populations who are experiencing homelessness?
    Ms. Oliva. Thank you for that question, and I want to start 
by pointing to the U.S. Department of Housing-VA Supportive 
Housing (HUD-VASH) Program. For those of you who are not 
familiar, the HUD-VASH Program is a program that uses a Housing 
Choice Voucher as the housing subsidy, and pairs it with 
services that are provided by the U.S. Department of Veterans 
Affairs (VA). I know earlier in the hearing, we had a question, 
or we talked a little bit about the impact of homelessness on 
veterans.
    HUD-VASH is a proof point on how vouchers can be used to 
end homelessness among people who are living in unsheltered 
locations. The HUD-VASH Program is really the keystone in our 
approach, certainly when I was at HUD. I am one of the 
architects of that program. It is one of the keystones to 
really being able to cut homelessness among veterans, 
especially unsheltered veterans and chronically homeless 
veterans who are quite ill. But that was really the centerpiece 
of our approach to being able to cut veteran homelessness by 
half over the last several years.
    So, I think that we can take lessons from HUD-VASH and 
apply them in other types of situations to ensure that people 
who are experiencing unsheltered homelessness have the housing 
and service resources that they need in order to maintain 
stability, and to pursue their own personal goals.
    Ms. Adams. Thank you. Madam Chairwoman, I just want to say 
how grateful I am to you for all of your work and diligence 
around housing, and I just want to reinstate my strong belief 
that everybody in this country deserves decent, affordable 
housing. These are questions of fairness and compassion, so I 
look forward to advancing these priorities with my colleagues 
and under your leadership.
    Thank you, Madam Chairwoman. I yield back.
    Chairwoman Waters. And thank you so very much. I understand 
that Mr. Gonzalez is back on the platform. If so, you are 
recognized for 5 minutes.
    Mr. Gonzalez?
    I am going to move on. Ms. Tlaib, you are now recognized 
for 5 minutes.
    Ms. Tlaib. Thank you, Madam Chairwoman, and thank you so 
much to our panel. I know it has been a long hearing, but it is 
an important one. I really appreciate it.
    For years, while working in the nonprofit sector, I always 
said, ``low-income or poor communities.'' But I am going to 
start calling my neighbors who are struggling with housing--
these are our, ``low-wage neighbors.'' These are low-wage 
earners. If people start relating how we are taking care of our 
low-wage earners and not just labeling them as low income, it 
is income coming from sources that refuse to increase pay, 
refuse to recognize the importance of increasing minimum wage 
and how that is really connected very much to access to 
housing.
    In the State of Michigan, especially here in Detroit, it is 
an over 80-percent Black City. It is very strong and resilient. 
But one of the things that is increasingly frustrating for a 
lot of my neighbors in my district is this idea of unfairness. 
And they continue to hear, obviously, excuse after excuse for 
not having equal access to vouchers, and how broken that system 
is.
    But the one thing, and I hope you might be prepared to talk 
about this, because this is where my frustration comes from, is 
this idea around the Low-Income Housing Tax Credit. Of course, 
I am very supportive of that. I am supportive of having what we 
call in Detroit like HUD housing and so forth. But what has 
happened is that it is almost like legalized speculation. It is 
like we are legalizing speculation of these developers coming 
in, and Madam Chairwoman, you know this, they come in, they 
make this HUD housing, taking vouchers in, and after 20 years 
they have the option of continuing on or not. But they wait. 
They wait until a city like mine, all of a sudden, ``comes 
back.'' I don't know where we are coming back from.
    And then, you see huge developers like Dan Gilbert, and 
other developers coming in, and mass-evicting everyone out of 
the building. Many of them are seniors who have been in the 
home for over a decade. I have known a woman for 21 years, a 
retired teacher, completely (inaudible) asked to leave, because 
then all of a sudde,n they turned them into bougie condos, 
unaffordable units.
    I don't know if it is you, Ms. Cunningham, who can talk a 
little bit about this, or Ms. Oliva, you have been talking a 
little bit about it. But I really am wondering how we, as the 
Federal Government, can stop that push, because I personally 
feel like when we see the loss of affordable housing in a city 
like mine, it is because we legalized this kind of speculation 
and then allowed them to push out our low-wage neighbors into 
other areas with just no option. And I am really tired of it. I 
am tired of us blaming our neighbors and talking about those 
subsidies, but we don't talk about the subsidies that kept many 
of these developers with a lot of profit, again all on the 
backs of American taxpayers.
    So I don't know if, Ms. Oliva, you can speak about that, or 
anybody else?
    Ms. Cunningham. Thanks for the question. I can start. I do 
think that building long-term affordability into those 
contracts for developers is really important, so we want to 
make sure that we have not only the development of those units 
but also long-term affordability. And we want to make sure that 
there is a preservation strategy for making sure that those 
units can stay affordable.
    But I will say that one of the plusses or benefits of the 
voucher program is that the subsidy stays with the tenant. So, 
tenants can take that voucher and move across the private 
market and rent where they can find a unit that is affordable. 
And that is a really important benefit of the voucher program.
    Ms. Tlaib. This is why we need to support more of that 
mobility versus what we had in the past. And I say that because 
I see a lot of these lobbyists coming to us saying, ``Support 
this tax credit,'' and it has been refused. This is what we 
need to support. We need to give it directly to the people. Let 
them have that independence that we hope will help them get 
them out of the cycle of poverty.
    Chairwoman Waters knows that 40 percent of the Housing 
Choice Voucher recipients are households with babies, with 
children. And so, it is really critically important that we 
support that. I only have 5 minutes and I ran on and on, but I 
am really tired of funding a broken system, and why aren't we 
doing something bold like a universal voucher system? I don't 
know. But that is why we are having this hearing.
    Thank you, Madam Chairwoman.
    Chairwoman Waters. Thank you very much. The gentlewoman 
from Pennsylvania, Ms. Dean, is now recognized for 5 minutes.
    Ms. Dean. Thank you, Madam Chairwoman. Can you hear me?
    Chairwoman Waters. Yes, I can hear you.
    Ms. Dean. Thank you very much, and of course, once again 
thank you for your focus on homelessness. Homelessness in 
America says a lot about us, and sadly, what it says is not 
good. So, I really prize and honor all of the folks who are 
here today and all of the work that you are doing to end 
homelessness, to stop the scourge of it in our cities. We know 
that it costs a lot of money. People are worried about the 
vouchers costing money. Homelessness already costs a fortune in 
our society, and it touches every district, including my own. I 
am from suburban Philadelphia, and while Philadelphia has a 
very serious homeless population, so does my own district of 
Montgomery and Berks Counties. We participated in the Point-in-
Time count, and I echo some of the sentiments: It doesn't seem 
to actually capture the homelessness picture. But our numbers 
show that every night, as many as 1,000 people are homeless in 
this suburban district.
    Ms. Cunningham, and Mr. Metcalf, each of you, in your 
testimony, described that an expansion of Housing Choice 
Vouchers should be targeted first to the most-vulnerable 
populations, and I am curious, what does, ``vulnerable,'' mean 
in your world? Does the current definition or focus on 
vulnerable populations include the elderly, those with mental 
health disorders, and those suffering from substance use 
disorder or addiction? Could you answer that for me, and how 
can we make sure we have a focus on those populations? Ms. 
Cunningham first, perhaps?
    Ms. Cunningham. Thank you, Congresswoman, for that 
question. As I noted in my testimony, we should target an 
expansion of vouchers to the most vulnerable, and that includes 
people who are currently homeless, people who have a 
disability, and that may include a behavioral health problem or 
a mental health problem, people who have physical disabilities, 
the elderly, survivors of domestic violence, people who have 
really, really, really low incomes, below 15 percent of AMI, 
and those who are severely cost-burdened. That is how I would 
define some of it.
    Ms. Dean. Thank you. Mr. Metcalf, your thoughts, and are we 
focused properly on these categories of people?
    Mr. Metcalf. Thank you for asking the question. I think it 
is really important in any scenario that we don't just flip a 
switch and have a universal voucher, but we need to move 
incrementally.
    Number one, I would say we need to prioritize those special 
needs populations, aligned with other interventions we already 
have. The VASH voucher is a perfect example of that. We have 
support from the VA; they just need more housing vouchers to 
accompany those folks who are coming out of homelessness. Our 
disability voucher is another great example of that. So, that 
is the first bucket, where we line up with other wraparound 
services.
    The second bucket, I think is a broader category of folks 
with vulnerabilities who are right on the edge of homelessness. 
I think there are opportunities to target these, so that we can 
keep those folks from falling into the very expensive situation 
of living on the streets.
    And then third, as Ms. Cunningham, just said, is anybody 
who is extremely low-income or very low-income or extremely 
cost-burdened. I think that would be the sort of three-tiered 
prioritization that I would recommend.
    Ms. Dean. If I could ask Ms. Oliva, in your testimony you 
mentioned the difficulties of measuring vulnerability as well, 
and that it differs per population. As you point out, it is 
quite fluid, based on life circumstances. Are these groups of 
vulnerable people described above often left out of 
determinations of vulnerability? I want to add an emphasis 
especially on those struggling with addiction. Here in 
Philadelphia, in suburban Philadelphia, you can see the direct 
connection between, or interconnectedness of mental health and 
addiction to homelessness.
    Ms. Oliva. Thank you for asking me that question. I would 
agree with both Mary and Ben about sort of how we think about--
even if we were to get to universal vouchers, I don't think 
anybody is suggesting that a switch would be flipped and that 
everybody would have one on day one, because we would actually 
have to implement it over time, and think about how to do that 
implementation.
    So yes, I would agree that we are talking about folks who 
are experiencing homelessness for a variety of reasons, 
including folks who want to be in recovery or have substance 
use disorders. That is definitely a vulnerable population. But 
it is always hard. As I mentioned in my testimony, frontline 
workers in the homeless system--I am also from suburban 
Philadelphia, so I know your area very well. Frontline workers 
in those areas have to make--I have watched them. They have 
devastating choices about who would get a housing voucher or 
who would get supportive housing placement. And we can do 
better than that. Thank you.
    Ms. Dean. Thank you, Ms. Oliva, and I look forward to 
working with you here in suburban Philadelphia.
    Thank you, Madam Chairwoman. My time has expired. I yield 
back.
    Chairwoman Waters. Thank you. The gentlewoman from New 
York, Mrs. Maloney, who is also the Chair of the House 
Committee on Oversight and Reform, is now recognized for 5 
minutes.
    Ms. Maloney? If you are not on at this moment, I am going 
to move on to Mr. Garcia. Mr. Garcia, are you on the platform?
    If not, the gentlewoman from Georgia, Ms. Williams, is now 
recognized for 5 minutes.
    Ms. Williams of Georgia. Thank you, Madam Chairwoman. I am 
on the platform.
    One of my priorities in Congress is closing the racial 
wealth gap, in my district and across the country. To achieve 
that goal, we must close disparities in meeting people's 
fundamental needs. Right now, 39 percent of all individuals 
experiencing homelessness in our country are Black, even though 
Black individuals only make up 12 percent of the total U.S. 
population.
    Ms. Cunningham, do you believe reducing racial disparities 
in homelessness could ultimately be a tool to help us address 
the racial wealth gap and give people of all backgrounds a fair 
shot at success?
    Ms. Cunningham. Thank you for that question, Congresswoman. 
It is really important. I think that housing vouchers are one 
of the most powerful tools that we have in our toolbox to 
address some of the racial disparities that we see in 
homelessness and also among renters. So if we expanded, and 
some of the analysis that we have done at the Urban Institute 
shows that if we expanded the Housing Choice Voucher Program to 
everyone who qualifies then we would actually eliminate or 
narrow almost all of those gaps. And, of course, if the long-
term trajectory is to increase wealth among people, you need to 
have stability in housing first. And so I think it is a really, 
really critical first step to decreasing the racial wealth and 
making sure that people have the stability of housing.
    Ms. Williams of Georgia. Thank you. To reduce racial 
disparities and get more individuals housed, it is important to 
have a full picture of the problem.
    Ms. Oliva, your testimony specifically referenced how 
unsheltered homelessness has increased every year since 2015. 
Overall, homelessness has increased in recent years, even 
though it was on the decline between 2007 and 2015. What are 
some top factors that could have contributed to these 
concerning trends over the last few years, specifically?
    Ms. Oliva. Thank you for that question. I noted in my 
written testimony that I get to work in communities all over 
the country as they are addressing homelessness, and I get to 
see the different situations that they are dealing with 
locally. And what I would note is that there are a lot of 
homeless service systems across this country that are actually 
housing more people now than they ever have before, including 
Los Angeles.
    And what they can't keep up with is inflow, and that feels 
different now than it did certainly during my tenure at HUD 
that ended a few years ago, where we can't keep up with the 
number of people who are falling into homelessness for the 
first time ever. And there are a number of factors that I am 
sure my fellow panelists could speak to better than I could, 
but that is something that is happening across the country.
    Ms. Williams of Georgia. Thank you so much. We are noticing 
that here in Atlanta. I just had a meeting last week with the 
Atlanta Housing Authority, and we were discussing these same 
concerns, so thank you for that. And as we continue to work to 
end homelessness in this country, we need to make sure that we 
address both housing affordability and access.
    Mr. Metcalf, in your testimony you mentioned how important 
it is to expand both vouchers and affordable housing supply. 
What are some principles that we should keep in mind to ensure 
that Federal investments are coordinated to tackle both housing 
access and affordability simultaneously?
    Mr. Metcalf. Thank you for that great question. I have just 
a couple of immediate responses. Number one, I think we need to 
be very sensitive to the areas in the country where we do have 
the supply-constrained markets, where really one of the drivers 
on affordability is extremely high rents, extremely high home 
prices that are due to not having enough supply. Those are the 
areas where we need to focus and have a greater share of our 
new production.
    There are many other markets in this country where the 
challenges are different. They look more like the quality of 
the underlying housing stock or the need to repurpose older 
housing stock, and so an adaptive reuse approach may make more 
sense than new construction, as a whole.
    The second point is we do have a very fractured housing 
subsidy delivery system, so the folks who may be on the ground 
administering the vouchers may look different than those who 
are deploying the new production subsidy system.
    I think one of the things we have seen some comments around 
is efforts to try and work more at the collaborative scale, to 
deploy resources at the county level instead of the city level, 
to create regional authorities that could do some of this work, 
and to centralize some of those functions at the State level as 
well. Those are things that help us do better planning and then 
also do much better execution around solving these challenges.
    Ms. Williams of Georgia. Thank you so much for your 
commitment to helping us solve this problem nationally. And 
with that, Madam Chairwoman, I will yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
Illinois, Mr. Garcia, is now recognized for 5 minutes.
    Mr. Garcia of Illinois. Thank you, Madam Chairwoman, and 
thanks to all of the witnesses who have come to share their 
expertise.
    This topic is close to home for me. I represent a working-
class, immigrant district that was hit especially hard by 
COVID-19 and the economic crisis, of course, that came with it. 
Most of my constituents are renters, and for us the housing 
crisis began a long time before the pandemic. My community 
never recovered from the Great Recession. Tens of thousands of 
Latinos have left the Logan Square neighborhood in Chicago in 
the last decade alone. We must break the brutal cycle of 
disinvestment, displacement, and homelessness. We need to build 
back better, and that means policies that recognize that 
housing is a human right.
    I would like to ask Professor Metcalf a question. There is 
a lot that we don't know about what housing and homelessness 
will look like post-COVID-19. Millions lost their jobs, but 
home prices are skyrocketing across the country. What impact do 
you think the virus will have on housing insecurity and 
homelessness?
    Mr. Metcalf. That is an excellent question, and I think 
there is a lot that we can learn from the experience of the 
last year. I think one of the key lessons learned is that we 
need to bake more resiliency into our housing system. I think 
we saw the limits. We saw how vulnerable our current housing 
system is for those low-wage workers who were most at risk 
during the COVID pandemic.
    One of the populations that did much better, comparatively, 
over this past year were voucher holders and other folks who 
were stably housed within federally-assisted affordable 
housing. When their incomes collapsed, because they were forced 
to work from home, the Federal Government was able to quickly 
step in and pick up a larger share of the total rent.
    I think the good news is that as we have seen countless 
State and local governments deploying one-time assistance to 
help deal with arrearages and help address the emergency rental 
assistance, we have learned a lot, and we all will learn a lot 
from these deployments of local funds. And I think we can then 
bring back to look for opportunities to improve our mainstream, 
long-term housing systems.
    And I think as one of my fellow panelists noted earlier in 
the hearing, it is actually giving all kinds of landlords--mom-
and-pops, mid-sized, and large--experience working with subsidy 
programs that I think will help them understand that maybe 
working in a public-private partnership is much more doable and 
much less scary than it might otherwise have been. I think it 
is, in some ways, a great opening into an expansion of the 
voucher program.
    Mr. Garcia of Illinois. Thank you for that. Ms. Cunningham, 
in the richest country on earth, every human being should have 
a roof over their head. Our current housing policies simply 
don't meet the need. Why is it important to make housing an 
entitlement by expanding our voucher program, and what role 
could expanding and investing in public housing play in 
securing housing for all?
    Ms. Cunningham. Thank you for that question, Congressman. I 
think, as you point out, we are the richest country in the 
world and we have a shameful homelessness problem that is 
highly visible everywhere you walk--I know it is where I live, 
in Washington, D.C. So, I think that we need to think about 
housing as a basic need, and understand that the housing market 
really fails to respond to the demand for housing. We have a 
private housing market that doesn't produce enough affordable 
housing for the people who need it, and that is because it 
doesn't pencil out for developers to really produce that 
housing.
    So in order for us to make sure that everyone is housed in 
the United States, we need government intervention, and that 
intervention really is in the form of, first, I think a 
universal housing voucher program which would provide rental 
assistance for everyone who needs it, but also then, or 
simultaneously, a strategy for really developing affordable 
housing and making sure that we can stretch those subsidy 
dollars. If we actually had the development of more affordable 
housing, those subsidy dollars would go further because the 
rents would come down a little.
    So I think it is important for us to both expand housing 
vouchers so that we can make sure that we are meeting 
everyone's basic needs, and to really address that market 
failure that we have right now.
    Mr. Garcia of Illinois. Thank you. Madam Chairwoman, I 
yield back.
    Chairwoman Waters. Thank you very much. I now recognize Mr. 
Auchincloss for 5 minutes.
    Mr. Auchincloss. Thank you, Madam Chairwoman. I represent a 
socioeconomically diverse district in Massachusetts, but 
whether I am speaking to high-income towns or lower-income 
towns, the burden of housing costs will come up. Double-digit 
increases in rent and mortgage payments are really putting 
people on the ropes. And it is especially acute for extremely 
low-income households. In 2016, the Federal Reserve Bank of 
Boston found that more than 80 percent of these extremely low-
income households in Massachusetts were rent-burdened. That is 
partly, of course, a challenge with the voucher program and we 
do need to better capitalize and expand the voucher program.
    It is also a problem of housing supply. For those 
households in 2016, there were only 46 affordable units 
available and only 14 of them were supplied by the market 
itself.
    Mr. Metcalf, this first question is for you. I know that at 
the Terner Center, you have been doing work in conjunction with 
private companies on innovative approaches to home building on 
fair housing that will make the cost per key more affordable, 
because if we can't make housing more affordable to build, I 
know that we cannot make it more affordable to live in.
    Can you describe some of the barriers to public-private 
partnerships to scale factory-built housing in the urban and 
suburban growth areas that you described a couple of questions 
earlier?
    Mr. Metcalf. Yes. It is a great question. I think one of 
the opportunities for affordable housing is lowering the cost 
of housing, whether it is subsidized or not. Either it 
stretches our subsidy dollars further or it helps the private 
sector to do what it should have been doing all along.
    As always a factor to build housing, we have seen 
challenges just in terms of the permitting structure for that. 
So, it can be hard for local governments to get comfortable 
with what it means to have factory housing delivered onsite.
    For multifamily housing, we are seeing an increasing share 
of housing that is using modular technology, either as units or 
flat packed, that are shipped from an off-site location. These 
offer the advantage of being able to be built often somewhat 
cheaper as well as quicker than traditional stick-built 
housing.
    But they are not a panacea. There are many reasons why 
factory-built housing still is not scalable. One of those is 
that we have had a lot of challenges within the modular 
industry in terms of actually getting factories up and stable 
and running to deliver with the needs that we have.
    We have seen factory after factory open up and then go out 
of business. We do need to continue to innovate in this space 
and support, I think, those factories trying to solve this 
problem. It is a promising technology.
    Mr. Auchincloss. A follow-up question, Mr. Metcalf. Do you 
have a sense for what Congress could do to better catalyze that 
local private-sector partnership that you think can provide the 
scale that factory-built housing needs to really get the cost 
per key down while ensuring environmental and quality and 
standards of living quality?
    Have you seen good examples of that? Is there a 
demonstration program that could be put together by HUD? Do you 
have a sense for a productive role--
    [Technical issue.]
    Mr. Metcalf. I may have lost the connection there. I think 
I missed the end of your question, Congressman.
    Chairwoman Waters. Will the gentleman continue with his 
question before I call on Mr. Steil? The question had not been 
answered. There is still time left on the clock. Whom did you 
address the question to, Mr. Auchincloss?
    Mr. Auchincloss. To Mr. Metcalf, Madam Chairwoman. I don't 
think he heard it fully. Maybe a connection issue on my end.
    But, Mr. Metcalf, I was asking whether you have seen 
examples or can help me think of examples of how Congress can 
help catalyze local government partnership with factory scale 
housing to get a cost per key data in a way that ensures high 
quality.
    Mr. Metcalf. Yes, that is great.
    First of all, I would say that HUD today has a very large 
and important oversight role in terms of regulating 
manufactured housing, and I think there are opportunities to 
continue to increase the role, the presence, the technical 
assistance that HUD provides to local governments.
    To give you a quick example, here in San Francisco we 
recently saw a project move forward that provides permanent 
supportive housing for the formerly homeless. It uses modular 
technology. It uses expedited streamlining that the local 
government has made available to move fast through the 
entitlement period, and it relies on very flexible up-front 
capital with very strong time and cost outcomes.
    We believe that kind of a project can reduce affordable 
housing costs for permanent supportive housing by as much as 20 
percent and increase the timing which you can develop by 
perhaps 25 percent as well. So, there are great models in how 
this can be done in partnership with--
    Mr. Auchincloss. Thank you, Mr. Metcalf.
    I yield back, Madam Chairwoman.
    Chairwoman Waters. Thank you very much.
    The gentleman from Wisconsin, Mr. Steil, is now recognized 
for 5 minutes.
    Mr. Steil. Thank you very much, Madam Chairwoman. I 
appreciate you holding today's hearing.
    I think all of us are a little tired of looking at Zoom. I 
think we are all looking forward to being back in person in the 
not-too-distant future. You can see some of the technical 
hiccups.
    I know we are on less than 7 days' notice of today's 
hearing. And so I, like others, hope that we will be getting 
back to normal soon. But today, we will navigate through. You 
are in my Chevy Traverse with me on the road.
    But Mr. Husock, if I can, several of the bills that my 
colleagues have attached to today's hearings are offering 
generous subsidies for households seeking a place to live.
    And while I do think we all agree that we want to ensure 
that American families can live in decent homes in safe 
communities, I am concerned that maybe some of these good 
intentions aren't really going to knock it out of the park 
here, and maybe we should be looking at policy solutions that 
address some of the underlying problems.
    In particular, I am examining some of the rising demand 
that has increased home prices, as well as other policies from 
Washington, D.C., that are driving home prices up by 13.2 
percent, according to a recent Case-Shiller index report, since 
the onset of the pandemic, and as one UCLA researcher, Nolan 
Gray, recently argued in the City Journal--he said that all 
this demand wouldn't be such a problem if housing supply could 
grow to accommodate it.
    Boosting demand subsidies in the context of static supply 
will only mean higher home prices as more dollars chase the 
same number of homes, meaning that we might have a supply 
problem that we should be examining here in today's committee 
hearing, not just a demand assistance issue.
    And as it stands to reason, I think we should look at ways 
to encourage the construction of our housing.
    Mr. Husock, would you agree that demand-side subsidies 
might not be the right fit for what is primarily a supply-side 
problem, and are you concerned that these proposals could 
actually increase the price of housing, making it more 
difficult for families to find safe and affordable housing?
    Mr. Husock. Right, and I will reiterate the points that 
some of your colleagues have made in this regard, which is that 
more demand chasing a relatively fixed supply is a recipe for 
inflation.
    I would point out in terms of the drawbacks of the current 
program--I know Congresswoman Pressley talked about long 
waiting times. I am looking at the HUD data, and the average 
time on the waiting list for a Section 8 voucher is not 10 
years; it is 28 months. And if we had a ceiling on the time 
that it could be used, we can bring that down more. So, it 
makes sense to bring that down rather than to flood the market 
with new subsidies.
    Mr. Steil. But if I could dive in, because I think some of 
this is--I want to focus in on the supply concern here.
    Mr. Husock. Yes.
    Mr. Steil. What are the policies that are preventing us 
from, and preventing developers from building more housing 
units?
    As supply increases, natural forces would allow us to have 
more affordable housing, and I am concerned that this policy in 
a static model without building new homes and just focusing on 
additional subsidies could actually increase prices.
    Could you touch on that? I know some people discussed it 
earlier in this long online forum, but just to touch on some of 
the Federal policies that you think that we could be looking at 
to really drive up the supply of housing to improve 
affordability.
    Mr. Husock. Right. A lot of that is at the State level, and 
the Federal Government can influence State action, of course.
    But if you require solar panels, if you require green 
technology, all of those things may be attractive, but they do 
come with cost, and there are myriad examples like that in 
terms of the kind of pipes that are required, but especially 
environmental add-ons. Again, there are trade-offs. We can't 
pretend there are not trade-offs.
    Additionally, if we flood the market with new subsidies, 
will young, unemployed, or new college graduates qualify for 
those because their incomes are, at the moment, low? Will they 
be discouraged from increasing their incomes because they might 
be disqualified for the voucher? Suddenly, we may have a world 
of people who don't fit the profile of the low-income 
household, the low-wage household, that we are looking at in 
this hearing but who might flood the market and qualify for 
these subsidies.
    Mr. Steil. I share a lot of your concerns about the 
unintended consequences of such a program, of flooding the 
market, that it might actually, as you note, incorrectly drive 
up the price of housing, making housing less affordable for 
individuals as well as encourage people who may otherwise be 
able, through general market forces, to find the income needed 
for that affordable housing.
    If I can, while I have a little bit of time left, if I can 
switch gears slightly and look at the Emergency Rental 
Assistance Program that has been focused on in the past, we 
have $46 billion that is supposed to address an urgent need.
    Chairwoman Waters. Forty-seven.
    [laughter]
    Chairwoman Waters. I'm sorry.
    Mr. Steil. Excuse me, Madam Chairwoman?
    Chairwoman Waters. Go right ahead.
    [laughter]
    Chairwoman Waters. Go right ahead.
    Mr. Steil. We are running out of time. Tell you what, I 
will hold that. I will put it in writing for you.
    And, Madam Chairwoman, I yield back.
    Chairwoman Waters. Thank you very much. I now recognize the 
gentleman from Arkansas, Mr. Hill, for 2 minutes to give a 
closing statement.
    Mr. Hill. Thank you, Madam Chairwoman, and let me thank our 
knowledgeable witnesses for their contributions to the record 
today, and for their ideas.
    I think we heard five key things today. First, we want to 
help move families from an entitlement world to an empowerment 
world. We want to find ways to have more affordable housing 
options.
    We want to find ways to best help our homeless brothers and 
sisters. We heard disappointment expressed today in the Biden 
Administration's failure to help tenants with the bipartisan 
rental assistance that was passed by Congress 6 months ago, in 
December, and we heard from Little Rock to LA to New York, many 
housing-insecure citizens need wraparound services to help 
them, sometimes principally and primarily along with shelter.
    And I appreciate the opportunity to work with my friends at 
Jericho Way, and at Our House in Little Rock, the Dole Fund in 
New York, and the Salvation Army in Cleveland.
    But while we heard those things, and we agree about many of 
them, there is just a disagreement on how to get there, and one 
of our witnesses remarked that all we need to accomplish this 
is a new $180 billion-per-year universal voucher entitlement 
and mandatory participation requirement for all landlords, and 
more funding to build more housing units in places where 
housing already costs too much.
    On the other hand, perhaps there is a more achievable way 
to accomplish that goal, by pursuing approaches that help lower 
income Americans earn more through better education, better 
access to better paying jobs, and keeping more of what they 
earn through reforms, like the idea of flat rents or matching 
and encouraging mobility towards geographies that are more 
affordable.
    So, I thank my friend, the chairwoman, for this hearing. It 
was a very interesting one, and I yield back the balance of my 
time.
    Chairwoman Waters. Thank you very much. I now recognize 
myself for 2 minutes to give a closing statement.
    Today's hearing has highlighted the need to move forward 
urgently on legislation to make Housing Choice Vouchers 
universally available.
    First, if we had had this in place prior to the pandemic so 
that a housing safety net kicked in automatically, like it does 
with food stamps, we wouldn't have had to scramble to put 
together the emergency relief packages that we did. We don't 
reinvent FEMA and disaster assistance every time there is a 
natural disaster.
    My Republican colleagues know that being fully-employed 
doesn't guarantee being able to afford housing. It takes nearly 
3 times the Federal minimum wage to be able to afford a modest 
apartment nationally. Many people who are experiencing 
homelessness are, in fact, working.
    Finally, my Republican colleagues are simply wrong about 
the effectiveness of Housing First. The dramatic reductions in 
veterans' and chronic homelessness under the Obama 
Administration from 2010 to 2015 resulted from Housing First, 
coupled with resources to implement efforts that Congressional 
Republicans and the Trump Administration tried to reduce or 
eliminate funding for every year.
    But to be clear, Housing First doesn't mean housing only. 
As Ms. Oliva said, if the only thing a dedicated straight-out 
worker can afford, a person experiencing homelessness, is a 
bottle of water rather than a place to live, we aren't going to 
undo the damage done by the Trump Administration. They need to 
be armed with a Housing Choice Voucher and the supportive 
services to move them from the street to stability.
    And we might have agreement across the aisle that Medicaid 
has an important role to play, but I am committed to, and the 
Supreme Court requires, ensuring that people confronting mental 
illness, substance addiction, or other health challenges can 
live in the community and not in institutions, and I hope we 
can work together on needed zoning reform to increase supply.
    I want to especially thank Mr. Green for recognizing and 
articulating that even with the mental illness assistance to 
people who are disabled, we need to have housing; once they are 
stabilized, they need a place to go.
    With that, I ask that a letter signed by almost 1,000 
organizations supporting universal vouchers be submitted for 
the record. And without objection, it is so ordered.
    And I would like to thank all of our distinguished 
witnesses for their testimony today. We learned a lot.
    And I want to say to the Members who have participated 
today, that I appreciate your participation. I think that all 
of the expertise that we have heard today will help us to move 
forward.
    And I also want to say to the Republicans today, that we 
heard from Mr. Husock some interesting points that I am going 
to explore a little bit further. I am going to look at flat 
rate. I don't know the details of that, but I am going to find 
out more about it.
    The Chair notes that some Members may have additional 
questions for these witnesses, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    And with that, this hearing is adjourned. Thank you very 
much.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]

                            A P P E N D I X

                              June 9, 2021
                              
                              
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 
 
                              
</pre></body></html>
